No. 19In the

Supreme Court of the United States
DeRAY MCKESSON,
Petitioner,
v.
JOHN DOE,
Respondent.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fifth Circuit

PETITION FOR A WRIT OF CERTIORARI
David D. Cole
A merican Civil Liberties
Union Foundation
915 15th Street, NW
Washington, DC 20005
K atie Schwartzmann
Bruce Hamilton
A merican Civil Liberties
Union Foundation of
Louisiana
P.O. Box 56157
New Orleans, LA 70156

David T. Goldberg
Counsel of Record
Donahue, Goldberg, Weaver
& Littleton, LLP
109 South Fifth Street,
Suite 4201
Brooklyn, NY 11249
(212) 334-8813
david@donahuegoldberg.com
Ben Wizner
Vera Eidelman
Brian Hauss
Emerson Sykes
A merican Civil Liberties
Union Foundation
125 Broad Street, 18th Floor
New York, NY 10004

William P. Gibbens
Ian Atkinson
Schonekas, Evans, McGoey
& McEachin, LLC
909 Poydras Street, Suite 1600
New Orleans, LA 70112
Counsel for Petitioner
293101

QUESTION PRESENTED
Do the First Amendment and this Court’s decision
in NAACP v. Claiborne Hardware Co., 458 U.S. 886
(1982), foreclose a state law negligence action making
a “leader” of a protest demonstration personally liable
in damages for injuries inflicted by an unidentified
person’s violent act there, when it is undisputed that
the leader neither authorized, directed, nor ratified
the perpetrator’s act, nor engaged in or incited
violence of any kind?

ii

CERTIFICATE OF PARTIES, PROCEDINGS
AND RELATED CASES
In addition to the parties on the caption, Black
Lives Matter Network, Inc., was a party to the
proceedings before the Court of Appeals but does not
join this petition.
PROCEEDINGS
Doe v. Mckesson, U.S. District Court for
the Middle District of Louisiana, Civ. Action
No. 16–00742–BAJ–RLB. Judgment entered
September 28, 2017; and
Doe v. Mckesson, U.S. Court of Appeals
for the Fifth Circuit, No. 17-30864.
Judgment entered August 8, 2019

iii

TABLE OF CONTENTS
Page
Question Presented ..................................................... i
Parties, Proceedings, and Related Cases .................. ii
Appendix Contents .................................................... vi
Table of Authorities ................................................. vii
Opinions Below .......................................................... 1
Jurisdiction................................................................. 1
Constitutional and Statutory Provisions Involved ... 1
Introduction ................................................................ 2
Statement ................................................................... 5
Reasons for Granting the Petition........................... 13
I. The Fifth Circuit’s rule defies Claiborne
and contravenes bedrock First
Amendment principles ....................................... 13
A. The Fifth Circuit’s decision conflicts with—
and discards—Claiborne’s central holding ... 13
1. The constitutional issue resolved against
petitioner is the exact one
Claiborne decided........................................... 13
2. Claiborne squarely and unambiguously
foreclosed the negligence principle

iv
the Fifth Circuit upheld ................................. 14
3. Claiborne foreclosed state law liability
based on relabeling third-party acts as
“consequences.” .............................................. 18
B. The Fifth Circuit decision conflicts with
fundamental principles of First Amendment
jurisprudence ................................................. 20
1. Important First Amendment precedents
stand against the Fifth Circuit’s
forfeiture-by-misdemeanor theory ................ 21
2. The Fifth Circuit’s rule wholly ignores the
First Amendment’s precision-of-regulation
mandate. ........................................................ 23
3. The Fifth Circuit’s decision ignored the First
Amendment’s central concern with indirect
speech suppression ....................................... .24
II. The critical importance of the rights the
Claiborne secures makes this Court’s
intervention necessary ....................................... 26
A. The novel “negligent protest” damages action
the Fifth Circuit embraced poses a potent
threat to rights of speech and association. ... 26
B. The Claiborne protections remain vitally
important ....................................................... 30

v

III. The First Amendment protections
the Fifth Circuit disabled should be
reinstated now, not later .................................. 31
Conclusion ................................................................ 34

vi
APPENDIX CONTENTS
Page
APPENDIX A – OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, DATED AUGUST 8, 2019 ..........1a
APPENDIX B – OPINION OF THE UNITED
STATES COURT OF APPEALS FOR THE
FIFTH CIRCUIT, DATED APRIL 24, 2019...........22a
APPENDIX C – OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF LOUISIANA,
DATED SEPTEMBER 28, 2017 .............................39a

vii
TABLE OF AUTHORITIES
Page(s)
Cases:
Ashcroft v. Free Speech Coalition,
535 U.S. 234 (2002) ............................................. 17
Bates v. Little Rock, 361 U.S. 516 (1960) ................ 25
Bell v. Whitten, 722 So.2d 1057 (1998) .................... 15
Bill Johnson’s Restaurants, Inc. v. NLRB,
461 U.S. 731 (1983) ............................................. 29
Boyer v. Johnson, 360 So.2d 1164 (La. 1978) .......... 22
Boykin v. La. Transit Co.,
707 So.2d 1225 (La. 1998) .................................... 9
Brandenberg v. Ohio, 395 U.S. 444 (1969) .......... 3, 17
Byers v. Edmondson, 712 So. 2d 681
(La. App. 1 Cir. 1998) ......................................... 17
Carey v. Brown, 447 U.S. 455 (1980) ....................... 14
Clark v. Cmty. for Creative Non-Violence,
468 U.S. 288 (1984) ............................................. 12
Cloer v. Gynecology Clinic, Inc.,
528 U.S. 1099 (2000) ..................................... 26, 30

viii

Cox Broadcasting Corp. v. Cohn,
420 U.S. 485 (1975)....................................... 32, 33
Dombrowski v. Pfister, 380 U.S. 479 (1965) ............ 33
Eastern Railroad Presidents Conference v. Noerr
Motor Freight Inc., 365 U.S. 127 (1961)............. 15
Elfbrandt v. Russell, 384 U.S. 11 (1966) ................... 3
Fort Wayne Books, Inc. v. Indiana,
489 U.S. 46 (1989) ............................................... 34
Forsyth County v. Nationalist Movement,
505 U.S. 123 (1992)........................... 24, 27, 28, 31
Galloway v. Dep’t of Transp. & Dev.,
654 So. 2d 1345 (La. 1995) ................................. 22
Gann v. Matthews,
873 So. 2d 701 (App. 1st Cir. 2004) .................... 15
Garrison v. Louisiana, 379 U.S. 64 (1964) .............. 14
Gibson v. Florida Legislative Investigation
Committee, 372 U.S. 539 (1963) ......................... 25
Gooding v. Wilson, 405 U.S. 518 (1972) .................. 32
Hague v. CIO, 307 U.S. 496 (1939) .......................... 14

ix
Harris v. Pizza Hut of Louisiana, Inc.,
455 So.2d 1364 (1984) ......................................... 15
Healy v. James, 408 U.S. 169, 185 (1972) ............... 17
Herndon v. Lowry, 301 U.S. 242 (1937) ............ 17, 27
Hurley v. IGLIB, 515 U.S. 557 (1995) ..................... 14
Juhl v. Airington,
936 S.W.2d 640 (Tex. 1996) .................... 18, 29, 30
Lam v. Ngo, 111 Cal. Rptr. 2d 582
(Cal. App. 4th Dist. 2001) ............................. 20, 23
Lazard v. Foti, 859 So.2d 656 (La. 2003) .................. 9
Louisiana ex rel. Gremillion v. NAACP,
366 U.S. 293 (1961)............................................. 25
McCullen v. Coakley, 573 U.S. 464 (2014) ........ 23, 26
Marsh v. Alabama, 326 U.S. 501 (1946) ................. 22
Miami Herald Publishing Co. v. Tornillo,
418 U.S. 241 (1974) ............................................. 34
NAACP v. Alabama ex rel. Patterson,
357 U.S. 449 (1958)............................................. 25
NAACP v. Button, 371 U.S. 415 (1963) ............. 15, 25

x
NAACP v. Alabama ex rel. Flowers,
377 U.S. 288 (1964) ....................................... 24, 25
NAACP v. Claiborne Hardware Co.,
458 U.S. 886 ................................................ passim
New York Times v. Sullivan,
376 U.S. 254 (1964) ............................................. 26
Nieves v. Bartlett, 139 S. Ct. 1715 (2019) .......... 20, 30
Noto v. United States, 367 U.S. 290 (1961) ............. 28
Nwanguma v. Trump,
903 F.3d 604 (6th Cir. 2018)............................... 30
Packingham v. North Carolina,
137 S. Ct. 1730 (2017)................................... 24, 31
Planned Parenthood of Columbia/Willamette, Inc.
v. American Coalition of Life Activists,
290 F.3d 1058 (9th Cir. 2002)............................ 18
Posecai v. Wal-Mart, 752 So.2d 762 (La.1999) .......... 9
Roach v. Liberty Mut. Ins.,
279 So. 2d 775 (La. 1973) ................................... 22
Scales v. United States, 367 U.S. 203 (1961) .......... 17
Shelton v. Tucker, 364 U.S. 479 (1960) ................... 23

xi
Snyder v. Phelps, 562 U.S. 443 (2011)..................... 29
State v. Pierre, 631 So. 2d 427 (La. 1994) ............... 21
UMW v. Gibbs, 383 U.S. 715 (1966) .......................... 3
United States v. L. Cohen Grocery Co.,
255 U.S. 81 (1921)............................................... 27
United States v. Stevens, 559 U.S. 460 (2010) ........ 20
Virginia v. Black, 538 U.S. 343 (2003) .................... 22
Wayte v. United States, 470 U.S. 598 (1985) ........... 29
Statutes:
Louisiana Civil Code article 2315 ............................. 1
Louisiana Rev. Statutes § 14.97 .............. 1, 10, 21, 23
28 U.S.C.§ 1254 .......................................................... 1
28 U.S.C. § 1257 ....................................................... 32
28 U.S.C. § 1332 ......................................................... 6

xii

Miscellaneous:

Page(s)

Judgment, Mckesson v. Baton Rouge,
No. 3:16-cv-00520 (M.D. La. Oct. 27, 2017) ....... 21
Restatement (Third) of Torts: Liability
for Physical and Emotional Harm § 19 (2010) .. 11
John C.P. Goldberg & Benjamin Zipursky,
Intervening Wrongdoing In Tort,
44 Wake Forest L. Rev. 1211 (2009) .................. 16

PETITION FOR A WRIT OF CERTIORARI
OPINIONS BELOW
The opinion, on rehearing, of the United States
Court of Appeals for the Fifth Circuit (Pet. App., infra,
1a–21a) is reported at 935 F.3d 233. An initial
(withdrawn) opinion of the Court of Appeals (Pet.
App., infra, 22a–38a) was reported at 922 F.3d 604.
The opinion of the district court (Pet. App., infra, 39a–
62a) is reported at 272 F. Supp.3d 841 (M.D. La.
2017).
JURISDICTION
The judgment of the Court of Appeals was entered
on August 8, 2019. On October 28, 2019, Justice Alito
extended the time for filing a petition for a writ of
certiorari to December 6, 2019. The jurisdiction of this
Court is invoked under 28 U.S.C.§ 1254.
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The First Amendment to the Constitution of the
United States provides, in pertinent part, that
“Congress shall make no law * * * abridging the
freedom of speech, or of the press; or the right of the
people peaceably to assemble, and to petition the
Government for a redress of grievances.”
Louisiana Civil Code article 2315 provides that
“[e]very act whatever of man that causes damage to
another obliges him by whose fault it happened to
repair it.”
Louisiana Rev. Statutes § 14.97 provides that
“Simple obstruction of a highway of commerce is the
intentional or criminally negligent placing of anything

or performance of any act on any railway, railroad,
navigable waterway, road, highway, thoroughfare, or
runway of an airport, which will render movement
thereon more difficult.
“Whoever commits the crime of simple obstruction
of a highway of commerce shall be fined not more than
two hundred dollars, or imprisoned for not more than
six months, or both.”
INTRODUCTION
Nearly four decades ago, this Court established a
federal constitutional rule limiting state law damages
liability for the “unlawful acts of others” occurring “in
the context of … activity” protected by the First
Amendment, NAACP v. Claiborne Hardware Co., 458
U.S. 886, 916 (1982). That case arose from a longrunning civil rights boycott that included “elements of
majesty,” id. at 888, but also acts and threats of
violence. The Mississippi Supreme Court had
affirmed a judgment holding the boycott’s leaders
personally liable for large damages on the ground
that, under state law, the violence rendered the
boycott illegal.
In holding that judgment unconstitutional, this
Court recognized both the significance of the State’s
interest in forestalling violence and the dangers to
First Amendment freedoms that its damages remedy
posed: Given the regularity with which violence and
First Amendment activity co-occur and the vagaries of
state law liability rules, only the most intrepid
citizens would exercise their rights and risk ruinous
liability if they could be held liable for the wrongful
acts of others. This would be especially true for people
like the Claiborne petitioners, pressing to “realize the
political and economic power available to them,” id. at
2

928, whose fates would rest with judges and jurors
disposed to see violence rather than “majesty” in their
activities.
This Court’s answer was a “federal rule of law” to
govern state liability rules for wrongs arising “in the
presence of activity protected by the First
Amendment,” id. at 916. States retain undiminished
authority to impose damages on protest participants
and leaders who themselves perpetrate violence. But
states may hold a leader personally responsible for
wrongs committed by others only when the leader
himself “authorized, directed, or ratified” the violence.
Id. at 927.
This constitutional rule consciously tracked those
established in landmark decisions recognizing First
Amendment limits on liability for incitement and
association—which similarly arise at the nexus of
protected activity and actual harm—see Brandenberg
v. Ohio, 395 U.S. 444 (1969); Elfbrandt v. Russell, 384
U.S. 11 (1966), and decisions restricting state
damages remedies in labor-management cases, in
order to “accommodate federal labor policy.”
Claiborne, 458 U.S. at 918 (discussing UMW v. Gibbs,
383 U.S. 715 (1966)).
The present case called for a straightforward
application of Claiborne, but it yielded something
strikingly different. Respondent, a police officer, filed
a state law tort suit seeking recovery for injuries
suffered when struck by a projectile while on duty at
a civil rights demonstration. He sought damages from
petitioner, a prominent social justice advocate—not
for hurling the rock, but for (allegedly) “leading” and
conducting the demonstration “negligently,” in the
face of a foreseeable risk that violence would occur.
3

After the courts below sifted through the complaint’s
implausible and sometimes inscrutable allegations,
they concluded there was no plausible basis for
inferring that petitioner authorized, directed, or
ratified the assault that injured respondent (or any
violence).
In a remarkable decision, the Fifth Circuit held
the negligence claim should proceed, “perceiv[ing] no
constitutional issue” with the negligence theory and
holding that Claiborne was “not a bar” to personal
injury damages, because the assault and ensuing
damages were a “consequence” of petitioner’s own
unlawful conduct, i.e., breaching a duty of care owed
the officer. Pet. App. 13a-14a.
That decision warrants review—and reversal—by
this Court. The gulf between the holding below and
this Court’s controlling precedent is as wide as it could
be; the Fifth Circuit saw the First Amendment as “no
bar” to the very foreseeability-based liability for the
unlawful acts of others explicitly condemned by
Claiborne and decades of important precedents.
The decision below directly contravenes Claiborne
and bedrock First Amendment principles, and
effectively reinstates the Mississippi Supreme Court’s
rule, unanimously rejected in Claiborne, that protest
leaders may be held personally liable for injuries
caused by the violent acts of others if they are a
foreseeable, but unintended “consequence” of
conducting a protest, whenever state law deems doing
so just and reasonable.
The need for intervention here goes beyond the
value of securing adherence to precedent—though
federal appellate decisions that contravene this
Court’s controlling decisions as thoroughly as does the
4

one here surely are rare. Rather, review is imperative
for the same reason it was in Claiborne—because the
surpassing importance of the rights the federal rule of
law safeguards and the potency of the threats it
protects against.
The Court should overturn the Fifth Circuit’s
disruptive rule and reinstate the Claiborne rule in
that circuit now. There is no basis for—and great risk
in—postponing decision until this case has been
litigated to judgment without First Amendment
protections, let alone allowing the spurious rule of law
to “percolate” elsewhere. Immediate review under
these circumstances is supported by this Court’s
longstanding practice, spares petitioner the heavy
burdens of lengthy litigation, and secures the free
speech rights the Fifth Circuit’s liability regime
actively deters. Indeed, were the Court to deny review
and were petitioner ultimately to prevail on factual or
nonconstitutional grounds, that victory would leave
residents of States in the Fifth Circuit saddled with
the Fifth Circuit’s deeply wrong, but hard-tochallenge First Amendment rule.
STATEMENT
1. On July 5, 2016, Alton Sterling, a Black
resident of Baton Rouge, Louisiana, was shot and
killed by two on-duty police officers responding to an
anonymous 911 call. Soon after, members of the city’s
Black community took to the streets, including the
area in front of Police Department headquarters, to
express their anguish, celebrate Mr. Sterling’s life and
humanity, and convey the need for accountability and
transformative change. As with protests prompted by
police violence elsewhere, one way those assembled
conveyed their dismay was by insisting, to the police
5

before them, their community, and the watching
world, that “Black Lives Matter.”
The Baton Rouge protests were, by all accounts,
initially peaceful, although respondent’s complaint
alleged that instances of unruliness occurred after
“activist[s] began pumping up the crowd,” Compl. ¶17.
In particular, the complaint alleges that on the night
of July 9, with a phalanx of armed police in “riot gear”
and others massed at the scene, some demonstrators
stole water bottles from a convenience store and threw
them in the police’s direction. Id. ¶18.1 And when
those “ran out,” the complaint alleged, an unidentified
person threw a “rock-like” object that struck and
injured respondent. Id. ¶20.
2. Respondent brought suit in federal court,
averring that the damages sought exceeded $75,000.
See 28 U.S.C. § 1332. Compl. ¶1.2 As defendants, the
complaint named DeRay Mckesson—petitioner
here—and “Black Lives Matter,” (Id. ¶3), which it
described as an “unincorporated association” on
whose “behalf” Mckesson led the demonstration. Id.
It did not seek recovery against the unidentified
assailant.
The complaint did not allege that Mckesson had
himself thrown anything or engaged in violence of any
kind. Rather, respondent sought to hold petitioner
liable for personal injury damages, because, he
Given the procedural posture of the case, petitioner treats
the complaint’s well-pleaded allegations as true.
1

Respondent
proceeded
anonymously,
making
unsubstantiated assertions that he feared retribution. Both the
district court and the court of appeals held he failed to state a
lawful basis for allowing him to proceed in that fashion. Pet. App.
20a n.8.
2

6

alleged, Mckesson was “present during the protest
and ... did nothing to calm the crowd.” Id. ¶19.
Respondent further alleged that petitioner “directed”
demonstrators to protest on the public road in front of
police headquarters and “knew or should have known
… that violence would result” from the demonstration
he “staged.” Id. ¶28. If proven, respondent
maintained, these allegations would give rise to
liability under theories of negligence, civil conspiracy,
and respondeat superior.
3. The district court dismissed the suit, concluding
that “Black Lives Matter” is a “social movement,” not
the sort of entity that may be sued in federal court,
Pet. App. 51a, and holding that the allegations
against petitioner failed to state a claim, id. 44a–47a.
The court acknowledged the seriousness of the
injuries for which respondent sought recovery, but
held that his claims were barred by NAACP v.
Claiborne Hardware’s special rule, governing civil
damages liability for the wrongs of others “committed
in the context of constitutionally-protected activity”
safeguarded by the First Amendment. 458 U.S. at 916:
A protest participant or leader who did not himself
engage in violence may be liable for damages caused
by another’s acts only upon proof that the nonviolent
defendant personally “authorized, directed, or
ratified” an associate’s violence or that he otherwise
manifest “a specific intent to further” the
perpetrator’s violent aims. Id. at 926–27. Claiborne’s
rule, the district court explained, reflects recognition
that while the Constitution “does not protect
violence,” Pet. App. 44a, it restricts the bases for
imposing responsibility for the violent acts of others,
in order to safeguard the exercise of First Amendment
7

rights of
assembly.

speech,

association,

petitioning,

and

The court then ruled that respondent’s effort to
amend the complaint—consisting principally of
adding “Black Lives Matter Network, Inc.” and the
hashtag “#BlackLivesMatter” to the roster of
defendants (and then serving Mckesson as their
“agent”)—failed because the amendments proposed
would not cure the complaint’s defects. Id. 52a-60a.
4. A panel of the Fifth Circuit, in an initial
published opinion and a substitute on rehearing—
each issued without oral argument—affirmed in part,
but revived the claim that petitioner should be liable
in “negligence” for the injuries the rock-thrower
inflicted.
The appeals court explained that because it
disagreed with the district court as to whether First
Amendment protections were implicated, id. 26a–27a,
it would begin by deciding the viability of the tort
claims under state law. The vicarious liability claim
failed, the court held, because respondent did not
“allege facts that support an inference that the
unknown assailant ‘perform[ed] a continuous service’”
for Mr. Mckesson (or “Black Lives Matter”) or that his
“‘physical movements [were] subject to … [their] right
to control.” Id.
The panel next explained why the complaint—
shorn of its impermissibly conclusory allegations—did
not state a plausible claim for civil conspiracy. While
the complaint did “allege[] facts that support an
inference that Mckesson agreed with unnamed others
to demonstrate illegally on a public highway,” the
court reasoned, it did not plead “facts that would allow
a jury to conclude that Mckesson colluded with the
8

unknown assailant to attack Officer Doe, knew of the
attack and ratified it.” Id. 28a.
The court reached a different conclusion
respecting Doe’s effort to hold Mckesson liable in
“negligen[ce,] for organizing and leading the Baton
Rouge demonstration,” based on the inference that he
“knew or should have known” that an act of violence
could occur there. Id. 29a. Under Louisiana law, the
court explained, a cause of action for negligence
requires proof that “(1) [plaintiff] suffered an injury;
(2) the defendant owed [him] a duty of care; (3) the
duty was breached…; (4) the conduct in question was
the cause-in-fact of the resulting harm; and (5) the
risk of harm was within the scope of protection
afforded by the duty breached.” Id. (quoting Lazard v.
Foti, 859 So.2d 656, 659 (La. 2003)).
The court viewed the duty issue as
straightforward, stating that Louisiana law imposes a
“universal” obligation in negligence cases “to use
reasonable care so as to avoid injury to another.” Id.
(quoting Boykin v. La. Transit Co., 707 So.2d 1225,
1231 (La. 1998)).3
In assessing the other elements, the court
attached special significance to the allegation that
petitioner had led demonstrators onto the road in
front of police headquarters. It noted that “[b]locking
The opinion quoted—but did not further discuss—a
Louisiana Supreme Court decision holding that duty
determinations depend both “on the facts, circumstances, and
context of each case” and on a list of “moral, social, and economic
factors, including the fairness of imposing liability; the economic
impact on the defendant and on similarly situated parties…” Id.
29a–30a (quoting Posecai v. Wal-Mart, 752 So.2d 762, 766 (La.
1999)).
3

9

a public highway is a criminal act under Louisiana
law.” Id. 30a (citing La. Rev. Stat. § 14:97). It was
“patently foreseeable,” the court reasoned, that police
would respond “by clearing the highway and, when
necessary, making arrests,” a development that, in
turn, carried a “foreseeable risk of violence” to
“officers, bystanders, and demonstrators.” Id. Thus,
although “[i]t may have been an unknown
demonstrator who threw the hard object,” the court
held, “Mckesson’s negligent actions were the ‘but for’
causes of” respondent’s injury.” Id. 10a.
Having concluded that petitioner could be sued
under state law, the court “t[ook] a step back” to
consider the Constitution. Id. 31a. The court held that
the absence of plausible allegations that petitioner
engaged in or in any way supported violence was
immaterial. Id. 32a. Rather, because respondent’s
complaint plausibly alleged both negligence and the
“tortious and illegal” act of “occupying [a] public
highway,” id. 33a, the court concluded that the First
Amendment was “not a bar” to imposing liability for
what it described as “the consequences”—i.e., the
arrests, the assailant’s hurling the rock, and the
injuries that ensued. Id. 32a–33a.
After affirming the district court’s ruling that the
claims against “Black Lives Matter” could not
proceed, the court expressed its expectation that, on
remand, the district court would consider “in the light
of [the court’s] decision” respondent’s requests to add
new parties and new allegations and discovery
demands, as well as “any new motions” he might file.
Pet. App. 37a.
5. Petitioner timely sought rehearing en banc,
asking the full Fifth Circuit to hear oral argument and
10

reconsider the panel’s First Amendment ruling,
highlighting its direct conflict with Claiborne and the
significance of the rights at stake.
After calling for and receiving a response—but
again without hearing argument—the Fifth Circuit
granted panel rehearing, withdrew the initial opinion
and issued a substitute. The revised opinion reached
precisely the same disposition as had the initial one,
and, with isolated exceptions, replicated verbatim the
initial opinion’s discussion of the nonconstitutional
issues.
The rehearing opinion did, however, expand on its
holding the First Amendment inapplicable. “Even if
we assume that Officer Doe seeks to hold Mckesson
‘liable for the unlawful conduct of others’ within the
meaning of Claiborne Hardware,” the court explained,
the First Amendment would not require dismissal of
Officer Doe’s complaint. Id. 12a. All respondent
needed to do “to counter Mckesson’s First Amendment
defense at the pleading stage,” it explained, was
“plausibly allege that his injuries were one of the
“consequences” of some “tortious activity,” which itself
was “authorized, directed, or ratified” by petitioner “in
violation of his duty of care.” Id.
The court explained that it “[p]erceive[d] no
Constitutional issue with Mckesson[’s] being held
liable for injuries caused by a combination of his own
negligent conduct and the violent actions of a another
that were foreseeable as a result of that negligent
conduct,” describing “[t]he permissibility of such
liability [as] a standard aspect of state law.” Id. 13a
(citing Restatement (Third) of Torts: Liability for
Physical and Emotional Harm § 19 (2010)). Claiborne
did not, the court stated, “restructure state tort law by
11

eliminating this principle of negligence liability.” Id.
While acknowledging that petitioner’s “negligent
conduct took place in the context of a political protest,”
the court concluded that “Claiborne Hardware does
not insulate [him] from liability for his own negligent
conduct simply because he, and those he associated
with, also intended to communicate a message.” Id.
Claiborne, the Fifth Circuit observed, had recognized
that “[t]he use of weapons, gunpowder, and gasoline
may not constitutionally masquerade under the guise
of advocacy.” Id. (quoting 458 U.S. at 916) (internal
quotation marks and citations omitted). Here,
likewise, “the criminal conduct” Mckesson allegedly
“ordered” was not “itself protected by the First
Amendment,” because a law prohibiting impeding
highway traffic is “a reasonable time, place, and
manner restriction.” Id. 14a (citing Clark v. Cmty. for
Creative Non-Violence, 468 U.S. 288, 293 (1984)).
The rehearing opinion offered a similar
explanation for why its ruling did not run afoul of
Claiborne’s prohibition against basing civil damages
on “associations with others,” absent proof that “the
group … ‘itself possessed unlawful goals … [and] that
the individual …. specific[ally] intended to further”
those unlawful goals. 458 U.S. at 920. The Fifth
Circuit held that this principle did not protect
petitioner, because respondent alleged that petitioner
harbored “a specific intent to further [demonstrators’]
illegal aim[]… to block a public highway.” Id. 14a n.4.
The rehearing opinion concluded by expressing
confidence that “no First Amendment protected
activity [would be] suppressed by allowing the
consequences of Mckesson’s conduct to be addressed
by state tort law.” Id. 14a.
12

REASONS FOR GRANTING THE PETITION
I.

The Fifth Circuit’s rule defies Claiborne and
contravenes bedrock First Amendment
principles.
A. The Fifth Circuit’s decision conflicts
with—and discards—Claiborne’s central
holding.
1. The constitutional issue resolved against
petitioner is the exact one Claiborne decided
decades ago.

That the court of appeals could “perceive no
constitutional issue” as to whether petitioner may be
liable in damages under state law for an act of violence
perpetrated by “another person” “in the context” of a
political demonstration is a strong sign of how
disconnected its ruling is from this Court’s decision.
That constitutional issue is precisely the one
Claiborne addressed, prompting this Court to
establish a federal rule restricting the “grounds” on
which states may impose civil damages liability for
the “unlawful acts of others” in the context of a
political protest. 458 U.S. at 927, 929-30.
Under this Court’s controlling rule, the court of
appeals was obliged to recognize, as had the district
court, that petitioner is not among the persons who—
consistently with the First Amendment—“may be
held accountable for [the] damages” respondent
suffered at the hands of the rock-thrower—an act
petitioner, indisputably, did not authorize, direct, or
ratify. To the extent Louisiana tort law would
authorize liability based on a protest leader’s
negligence—i.e., proof that another person’s violence
was a foreseeable, but not intended, result of the
13

protest, that principle may not constitutionally be
applied to petitioner.
The court of appeals asserted, with no further
elaboration, that the Claiborne rule did “not fit the
situation we address today,” Pet. App. 12a. Not so.
This case and Claiborne are, in every constitutionally
relevant sense, indistinguishable.
Respondent here, as in Claiborne, seeks to hold
petitioner liable for injuries caused by someone else.
As in Claiborne, those harms arose in the context of
First-Amendment-protected activity. The tort claim
seeks to impose liability for alleged negligence in
conducting a political protest “a use of [public] streets
that has ‘from ancient times, been a part of the
privileges, immunities, rights, and liberties of
citizens.’” Hurley v. IGLIB, 515 U.S. 557, 579 (1995)
(quoting Hague v. CIO, 307 U.S. 496, 515 (1939)
(opinion of Roberts, J.)). He and the many others
assembled before the Baton Rouge police
headquarters in July 2016 did so not merely to speak
out on matters of public concern—already assigned
“the highest rung [in] the hierarchy of First
Amendment [protection],” Carey v. Brown, 447 U.S.
455, 467 (1980)—but specifically to “petition the
Government for a redress of grievances,” U.S. Const.
amend. 1, and call fellow citizens’ attention to failures
by their government officials to discharge their
responsibilities under the Equal Protection Clause.
Such activity “is the essence of self-government.”
Garrison v. Louisiana, 379 U.S. 64, 75 (1964).
2.

Claiborne squarely and unambiguously
foreclosed the negligence principle the Fifth
Circuit upheld.
14

The Fifth Circuit’s conclusion that the negligentprotest cause of action is “[c]onstitutional” because
damages liability for negligently enabling a criminal
act committed by a third-party is a “standard aspect
of state law” Pet. App. 13a—and because this Court’s
opinion did not expressly displace it—misunderstands
Claiborne.
The central thrust of Claiborne is not that state
tort law principles overcome First Amendment
limitations, but rather that the federal Constitution
forbids extravagant state-law attributions rules,
whatever
their
pedigree,
that
would
be
unexceptionable were First Amendment activity not
present, The problem with the professional ethics
rules in NAACP v. Button, 371 U.S. 415 (1963), and
the antitrust rules in Eastern Railroad Presidents
Conference v. Noerr Motor Freight Inc., 365 U.S. 127
(1961), was not that they were less well-established
than the one here, but that their broadest applications
imposed stifling burdens on speech and association.
Indeed, the theories on which the Claiborne plaintiffs
prevailed at trial included state statutes, which almost
certainly could have been applied to similar concerted
action outside the First Amendment setting. See 458
U.S. at 915 n.49; accord Cloer v. Gynecology Clinic,
Inc., 528 U.S. 1099 (2000) (Scalia, J., dissenting from
denial of cert).4
The “principles” and “aspects” of tort law on which
respondent’s claim relies appear, in any event, a good deal less
“standard” than the court assumed. Louisiana does not, as a
general rule, impose a “duty to protect others from the criminal
activities of third persons.” Harris v. Pizza Hut of Louisiana, Inc.,
455 So.2d 1364, 1371 (1984). Nor does the State allow police
officers to recover for injuries suffered in performing their job
responsibilities. See, e.g., Bell v. Whitten, 722 So.2d 1057 (1998).
4

15

The Fifth Circuit’s premise that the Claiborne
opinion’s silence as to any particular tort principle or
“aspect” should be construed as approval likewise
misunderstands the character and operation of this
Court’s rule. It is a general rule, which displaces—
“eliminates”—any aspect of state law that falls below
the First Amendment floor.
In any event, the particular “aspect of negligence
law” the court of appeals upheld here—authorization
of liability for another person’s unlawful behavior
based on foreseeability, rather than intent—is the one
Claiborne most explicitly eliminates. This Court’s
decision states in clear terms the First Amendment
minimum for attributing liability for violent “acts of
other persons”: It requires proof of authorization,
direction, or ratification. 458 U.S. at 927, 929-30.
Imposing damages liability based on violent acts that
a protest leader foresaw, but did not intend, is what
the Constitution was held to forbid.
Claiborne’s specific culpable intent requirement
was no slip of the judicial pen. It was the central,
rigorously supported, holding of the unanimous
Court. And it expressly rested on the First
Amendment limitations recognized in landmark
decisions involving incitement and associational
liability. 458 U.S. at 918-20, 927-28. Those cases
Indeed, Louisiana courts rejecting such liability have reasoned
that “[p]olice officers are hired to protect others from criminal
activities, are expected to effect arrests as part of their duties
and [can] expect a criminal to resist arrest.” Gann v. Matthews,
873 So. 2d 701 (App. 1st Cir. 2004). Cf. John C.P. Goldberg &
Benjamin Zipursky, Intervening Wrongdoing In Tort, 44 Wake
Forest L. Rev. 1211, 1244 (2009) (describing cited Restatement
section as “running roughshod over standard ways of
understanding responsibility”).

16

confronted almost exactly the same question
presented to the courts below here: whether and how
States may regulate based on First Amendment
activity’s contribution to foreseeable violent acts of
others. And those precedents’ answer, arrived at
through generations of struggle, is Claiborne’s: The
First Amendment forbids imposing liability for
advocacy that directly and foreseeably leads others to
commit violent acts, absent proof the advocate
intended the violence to occur, see Brandenberg v.
Ohio, 395 U.S. 444 (1969); and “civil or criminal
disabilities may not be imposed” for affiliating with an
organization with violent purposes unless the
individual “specific[ally] inten[ds] to further those
purposes.” 458 U.S. at 932; Scales v. United States,
367 U.S. 203, 229 (1961); Healy v. James, 408 U.S.
169, 185–86 (1972); cf. Herndon v. Lowry, 301 U.S.
242, 262 (1937) (invalidating statute authorizing
punishment if a “defendant [could have] forecast that,
as a result of a chain of causation, his speech will lead
[a] group to resort to force”).5
These rules recognize that “[h]olding speakers
responsible for an impact they did not intend
endanger[s] the First Amendment protection accorded
5 Decisions of this Court and lower courts have applied these
principles in other settings, rejecting on First Amendment
grounds government efforts to impose liability for activity that
enables serious criminal activity. See, e.g., Ashcroft v. Free
Speech Coalition, 535 U.S. 234, 253-57 (2002) (holding that First
Amendment forbids ban on “virtual child pornography,”
notwithstanding congressional findings that such materials
enable sexual abuse of children and undermine enforcement of
laws barring “actual” materials); Byers v. Edmondson, 712 So. 2d
681, 690 (La. App. 1 Cir. 1998) (forbidding negligence claim
based on filmmaker’s contribution to murder, holding that
“[p]roof of intent,” not “mere foreseeability” is required).

17

advocacy of political change,” Planned Parenthood of
Columbia/Willamette, Inc. v. American Coalition of
Life Activists, 290 F.3d 1058, 1108 (9th Cir. 2002)
(Berzon, J., dissenting from denial of rehearing). That
is the basis for the Claiborne protection. See Juhl v.
Airington, 936 S.W.2d 640, 648 (Tex. 1996) (Gonzalez,
J., concurring) (“[W]e cannot] allow [plaintiff] to
prevail [on negligence theory] and still protect the
protestors’ right to free speech and peaceable
assembly.”)
3. Claiborne foreclosed state law liability based on
relabeling third party acts as “consequences”
The only support the Fifth Circuit claimed for
holding that the First Amendment poses “no[] bar” to
holding Mckesson liable for the unintended, unlawful
acts of an unidentified other person is an upside-down
reading of a phrase in the Claiborne opinion itself.
Because this Court affirmed that liability for
“consequences of [protesters’] own tortious activity,”
remains permissible, the court of appeals maintained,
Pet. App. 12a, respondent could recover damages for
his personal injuries as a “consequence” of petitioner’s
“own” wrongdoing—his breach of a “universal” duty to
conduct a protest in a manner that avoids foreseeably
violent acts by others. Id. 9a-10a.
This suggestion fails. The statement the Fifth
Circuit seized upon described the permissible grounds
for direct responsibility—a species of liability
unquestioned by the Claiborne petitioners. Indeed,
the language was little more than a restatement of
what Claiborne affirmed before announcing
restrictive federal limits on state law remedies: “The
First Amendment does not protect violence nor does it
constrain liability for the losses that are caused by
18

violence.” 458 U.S. at 916–17 (emphasis added). The
contested issue in Claiborne was derivative
responsibility for another person’s violence. And this
Court surely did not hold—as the Fifth Circuit
posited—that the Constitution allows States to
impose liability for acts of violence a protest leader
personally intended or approved and, alternatively,
for acts by others he did not intend, as a “consequence”
of his “own” negligent contribution. Specific intent is
the exclusive basis for imposing damages.
Indeed, giving “tortious” the capacious meaning
the Fifth Circuit’s theory requires would make
Claiborne’s specific holding unintelligible. Charles
Evers did do something state courts had held
“unlawful”—organizing a boycott that included
violent acts—and the verdict held unconstitutional
charged him with its “consequences.” The judgment’s
constitutional defect was the “grounds” on which
Mississippi law made him responsible for the others’
acts. 458 U.S. at 928-29.
The Fifth Circuit’s suggestion that the absence of
violent intent here was not fatal under Claiborne’s
derivative liability—that respondent’s injuries could
be recovered as a “consequence” of petitioner’s
directing others to unlawfully walk onto a public
highway, Pet. App. 12a—merely substitutes one
patent error for another. It keeps the level of intent
above the Claiborne floor, but ignores the specific
intent requirement. The First Amendment is not
overcome when a protest leader directs another
person do something unlawful, but rather the
“specific” act that “directly and proximately” caused
the injuries for which recovery is sought. 458 U.S. at
918; see also id. at 920 (noting that First Amendment
permits associational liability only where others
19

“possessed unlawful goals and the individual held a
specific intent to further those illegal aims”)
(emphasis added); Lam v. Ngo, 111 Cal. Rptr. 2d 582,
592 (Cal. App. 4th Dist. 2001) (Claiborne is “quite
clear” in requiring proof of a protest organizer’s
“authorization, direction, or ratification of ‘specific’
constitutionally unprotected tortious activity …
before [he] can be held responsible for the
consequences of [that] activity.”) (quoting 458 U.S. at
927).
B. The Fifth Circuit decision conflicts with
fundamental
principles
of
First
Amendment jurisprudence.
1. Important First Amendment precedents
stand against the Fifth Circuit’s forfeiture-bymisdemeanor theory.
The Fifth Circuit reasoned that because Mckesson
allegedly encouraged protesters to walk onto a road,
or “public highway,” and Louisiana law treats that as
a misdemeanor, Claiborne should not apply. Pet. App.
12a. But one unlawful act in the context of a protest
does not rob the entire protest—or the underlying
expressive
association—of
First
Amendment
protection. “[Criminal laws have grown so
exuberantly [that] … almost anyone can be arrested
for something.” Nieves v. Bartlett, 139 S. Ct. 1715,
1730 (2019) (Gorsuch, J., concurring and dissenting).
But criminal laws can serve many different purposes,
wholly unrelated to personal injury or violence—let
alone preventing third-party resistance that arresting
violators might arouse. See United States v. Stevens,
559 U.S. 460, 475 (2010) (highlighting diversity of
reasons, unrelated to animal cruelty, for laws making
killing animals illegal, noting ‘[l]ivestock regulations
20

... designed to protect the health of human beings” and
rules designed to raise revenue).
The “criminal law” on which the Fifth Circuit
staked its First Amendment exception illustrates
that. L.R.S. § 14:97, titled “simple obstruction of a
public highway,” makes it a misdemeanor to
“perform[] any act … on any … road, … which will
render movement thereon more difficult.” That
offense, which does not require proof of personal
injury or violence, carries a maximum fine of $200—
upon a finding of guilt beyond a reasonable doubt.6 Its
manifest concern is protecting the movement of
traffic, not guarding against the prospect that
someone’s directing a protester to a road will induce
an arrest, which, in turn, will elicit another person’s
violent response. Even if it is unlawful for protestors
to demonstrate on the street, rather than a sidewalk—
or direct them to do so, no speaker of ordinary English
would describe respondent as a “victim” of that
offense. Petitioner of course could not be prosecuted
for battery—or violently resisting arrest—on a
“transferred intent” theory. See State v. Pierre, 631 So.
2d 427, 428 (La. 1994).7

Petitioner was in fact arrested and charged with violating
that provision. But those charges were dismissed by the
prosecutor in short order—and it is a matter of public record that
respondent’s employer subsequently settled a civil rights case
alleging illegal arrests and agreed, in exchange for dismissal, to
pay for expungement of the record of that arrest and to
compensate petitioner for the time he was detained on that
charge. See Judgment, Mckesson v. Baton Rouge, No. 3:16-cv00520 (M.D. La. Oct. 27, 2017).
6

In fact, Louisiana tort law embodies the same principle.
“The doctrine of negligence per se has been rejected in
Louisiana,” Galloway v. Dep’t of Transp. & Dev., 654 So. 2d 1345,
7

21

The Fifth Circuit’s suggestion that protesting on a
public highway (or inducing others to do so is a
misdemeanor) is “unprotected”—because it, like the
“[t]he use of weapons, gunpowder, and gasoline,” is
illegal—misunderstands
First
Amendment
fundamentals. Pet. App. 13a (quoting 458 U.S. at
916). Liability for such acts is constitutionally
unproblematic not because they are criminal, but
because they directly inflict harms—“consequences”—
for which a weapon-user is accountable, even when his
motivations were political. See 458 U.S. at 918. A
protest that steps from the sidewalk to a street does
not, by violating a misdemeanor provision, become an
unprotected “masquerade under the guise of
advocacy,” disentitled to First Amendment protection.
The notion that First Amendment protections—
including Claiborne’s limitations on tenuous
impositions of civil damages liability—are rendered
inoperative by “illegal” activity was the premise of the
state court decision this Court overturned. 458 U.S.
895–96. In fact, decisions dating back to Marsh v.
Alabama, 326 U.S. 501 (1946), have vindicated free
speech rights of persons whose exercise occurred
while violating criminal trespassing laws. See also,
e.g., Virginia v. Black, 538 U.S. 343 (2003) (vacating

1347 (La. 1995), “because [criminal] statute[s] may have been
designed to protect someone other than the plaintiff, or to protect
the plaintiff from some evil other than the injury for which
recovery is sought.” Boyer v. Johnson, 360 So.2d 1164, 1168–69
(La. 1978). Leading cases have rejected civil liability for thirdparty acts that were foreseeable to the law-violator, but were not
the reason for enacting the criminal law. Roach v. Liberty Mut.
Ins., 279 So. 2d 775, 777 (La. 1973) (violator of “lock statute” not
accountable for “carelessness of a thief who steals the vehicle”).

22

conviction of defendant for burning a cross on Black
family’s property).
2. The Fifth Circuit’s rule wholly ignores the
First Amendment’s precision-of-regulation
mandate.
The First Amendment principle that allows a
State to fine a protest leader for impeding traffic and
also impose damages liability on a politically
motivated rock-hurler—but not to make the
trespasser liable in damages for the rock-throwing—
is the command that, even when pursuing valid and
important objectives, government may not “broadly
stifle fundamental personal liberties when the[ir] end
can be more narrowly achieved.” 458 U.S. at 920
(quoting Shelton v. Tucker, 364 U.S. 479, 488 (1960)).
That principle is central to Claiborne, but entirely
absent from the decision below. See also Lam v. Ngo,
111 Cal.Rptr.2d at 593 (fact that organizer violated
court-ordered buffer zone could subject him to
contempt sanction, but did permit liability for tireslashing and intimidation that were not “authorized,
directed or ratified by [him]”).
In fact, that principle animates the doctrine the
Fifth Circuit rehearing opinion claimed supported its
“no protection” theory. See Pet. App. 14a (asserting
that Section 14.97 is a content-neutral, time-placemanner regulations). Such measures are not
constitutional per se. They may be upheld only when
they do not “burden substantially more speech than is
necessary to further the government’s legitimate
interests.” McCullen v. Coakley, 573 U.S. 464, 486
(2014). Indeed, two very recent decisions of this Court
applying that test have struck down measures for
23

failing it. See id.; Packingham v. North Carolina, 137
S. Ct. 1730, 1736 (2017).
More important, any speech burdens that Section
14.97 imposes are different in kind and degree from
ones imposed by a rule that makes straying onto a
public road the trigger for limitless personal damages
liability for independent third-party violence the
trespasser (or person encouraging trespass) neither
directed nor intended. Cf. Forsyth v. Nationalist
Movement, 505 U.S. 123, 131 (1992) (a regime with
“potential for becoming a means of suppressing a
particular point of view,” is “inherently inconsistent
with a valid time, place, and manner regulation”)
(citation omitted). Indeed, justifying that regime—the
Fifth Circuit’s rule—would require demonstrating
why Section 14.97 and other familiar, Claibornecompliant means at the government’s disposal for
addressing violence or highway interference or
personal injury are inadequate. See NAACP v.
Alabama ex rel. Flowers, 377 U.S. 288, 308 (1964)
(invalidating order banishing civil rights group from
State, because illegal conduct alleged “suggest[ed] no
legitimate governmental objective which [would]
require[] such restraint”).
3. The Fifth Circuit’s decision ignored the First
Amendment’s central concern with indirect
speech suppression.
The rehearing opinion’s pronouncement that the
regime it approved effected no suppression of First
Amendment protected activity, Pet. App. 14a, is
naturally understood as restating the court’s
(erroneous) assumption that a demonstration that
veers onto a highway thereby forfeits all
“protection”—not just against targeted regulations,
24

but also against ruinous damage liability for thirdparty violence a protest leader did not approve. But
that statement also spotlights the failure of the court’s
“Claiborne” ruling actually to engage with this Court’s
Claiborne decision. In arriving at federal rule of law
in Claiborne, this Court looked beyond the burdens on
the parties before it and gave great weight to the
broader First Amendment harms that lawsuits like
Claiborne Hardware’s inevitably inflict on vital, but
“fragile” protections. 458 U.S. at 931. Indeed, this
Court’s recognition that threats of civil liability under
loose standards have powerful suppressive effects,
handing political opponents a potent tool for
“destruction by lawsuit,” id. at 933, was based on
direct experience, not speculation. See id. at 930 n.75
(citing NAACP v. Alabama ex rel. Patterson, 357 U.S.
449 (1958); Bates v. Little Rock, 361 U.S. 516 (1960);
Louisiana ex rel. Gremillion v. NAACP, 366 U.S. 293
(1961); NAACP v. Button, 371 U.S. 415 (1963); Gibson
v. Florida Legislative Investigation Committee, 372
U.S. 539 (1963); and NAACP v. Alabama ex rel.
Flowers, 377 U.S. 288 (1964)).
Protecting against burdens on rights of speech
and association and guarding against arbitrary,
viewpoint-based damages verdicts are not primarily
the office of state tort law, but rather of the United
States Constitution. The Fifth Circuit’s decision failed
to recognize that and to fulfill its responsibility to
uphold and enforce the Claiborne rule.

25

II. The critical importance of the rights
Claiborne secures makes this Court’s
intervention necessary.
A. The novel “negligent protest” damages
action the Fifth Circuit embraced poses a
potent threat to rights of speech and
association.
The Fifth Circuit’s negligent protest tort, no less
than the loose and manipulable grounds on which
personal damages liability was imposed in Claiborne,
will serve as “a terrifying deterrent to legitimate,
peaceful First Amendment activity.” Cloer, 528 U.S.
at 1099 (Scalia, J., dissenting from denial of cert.).
The negligent protesting theory applies
particularly to political demonstrations, which are
“classic forms of speech that lie at the heart of the
First Amendment,” Schenck v. Pro-Choice Network,
519 U.S. 357, 377 (1997). Moreover, the reasons why
“‘[t]he fear of [civil] damage awards ... may be
markedly more inhibiting than the fear of prosecution
under a criminal statute,’” New York Times v.
Sullivan, 376 U.S. 254, 277 (1964), apply especially in
this setting. The scope and magnitude of personal
damages liability any would-be protest leader
confronts is limitless and unknowable, determined by
the severity of injuries to unknown “police and
bystanders,” Pet. App. 10a-11a, and inflicted through
violent acts by others present on the street whom the
leader neither knew nor controlled.
Citizens who feel passionately enough about an
injustice to collectively risk arrest or misdemeanor
fines for protest activity will balk at damages liability
26

orders of magnitude larger—for having breached
“duties” imposed post-hoc, based on a judge’s views of
“the particular facts, circumstances, and context” of
the protest and balancing a list “moral, social, and
economic” considerations and a jury’s determinations
as to whether the protest leader took “reasonable
care” of “police, bystanders, and other protesters” and
whether some third-party’s violent act was caused by
the “breach.” Such a radically open-ended regime is
the “equivalent of … a statute which in terms merely
penalize[s] and punishe[s] all acts detrimental to the
public interest when unjust and unreasonable in the
estimation of the court and jury,” Herndon v. Lowry,
301 U.S. 242, 263 (1937) (quoting United States v. L.
Cohen Grocery Co., 255 U.S. 81, 89 (1921)).
And it is the polar opposite of Claiborne’s clear
and certain rule, which makes a protest organizer’s
specific violent intent (or lack thereof) the only
touchstone for imposing liability for harms inflicted by
another person’s violent acts.
Moreover, any rule that seeks to combat violence
by making leaders personally liable for injuries that
are a consequence of what someone else foreseeably
does at a demonstration will have unequal speechsuppressive
effects,
disadvantaging
would-be
protesters with the fewest means and those who seek
to address subjects that arouse virulent opposition—
or impassioned support or both (or are particularly
unpopular with police). Not unlike the regime the
Court held unconstitutional in Forsyth County,
“[t]hose wishing to express views” that stir strong
feelings among “bottle throwers …. [must expect] to
pay more.” 505 U.S. at 134.

27

Indeed, nothing in the Fifth Circuit’s exposition of
the negligence tort or its discussion of the First
Amendment confines a leader’s state-law duty to
accounting for unwelcome, but foreseeable violence on
his “side.” Unlike in Birmingham, violence that
occurred at Martin Luther King’s 1968 Memphis
march originated with persons parading by his side;
but if liability may be freely imposed for violence
foreseeably resulting from protests that heighten
confrontation with law enforcement or violate minor
laws, Dr. King could have been forced to pay damages
for Bull Connor’s depredations. And if Forsyth County
does preempt tort liability on a heckler’s-veto basis,
the resulting regime, making a protest leader
personally liable in damages for foreseeable violent
acts of “sympathizers,” would flout the principle that
a shared belief in some ultimate goal is an
impermissible basis for imposing responsibility for an
associate’s specific criminal acts. See, e.g., Noto v.
United States, 367 U.S. 290, 299-300 (1961).
In practice, the combination of a limitless liability
rule and the presence—an inevitability when protests
occur on public streets—of potentially violent
“allies”—will operate as a species of governmentcompelled speech, requiring leaders to redirect their
message away from the concerns that impelled them
to protest and toward calming sympathetic “bottle
throwers.” In real-world conditions, the regime will be
a rule of compelled silence: In a potentially volatile
situation, the prudent course for a protest leader will
be simply to go home. But see Claiborne, 458 U.S. at
920 (the First Amendment forbids imposition of a
“legal duty to ‘repudiate”).
Nor are the regime’s affronts to First Amendment
values limited to overdeterrence. As this Court has
28

long recognized, vague rules not only have powerful
chilling effects; they also invite discriminatory
enforcement. It would be surprising if a jury
determined the various negligence elements the same
way in a case where an injury arose at a protest with
a locally popular message and in one where the
defendant is perceived as an “outside activist” and the
injured party, a local police officer. As Snyder v.
Phelps explained, when liability turns on “[a] highly
malleable standard,” there is “a real danger of [the
jury’s] becoming an instrument for the suppression of
[First Amendment activity].” 562 U.S. 443, 458 (2011).
Even when imposition of an adverse jury verdict
is, objectively, a low risk, litigation itself will be a
burdensome ordeal for a protest leader named as a
civil defendant, who is not entitled to court-provided
counsel. Worse yet, these burdens may be—and often
are—imposed intentionally, for the purpose of
suppressing disfavored speech. However imperfectly
upheld, prosecutors are under a constitutional
obligation not to initiate cases based on political
disagreement. See Wayte v. United States, 470 U.S.
598, 608 (1985). Private parties, in contrast, may
bring suit, select defendants, and make litigation
decisions with the sole purpose of inflicting hardship
on speakers and movements whose political views
they disapprove. See Bill Johnson’s Restaurants, Inc.
v. NLRB, 461 U.S. 731, 744 (1983).8

Justice Gonzalez’s concurrence in Juhl v. Airington, 936
S.W.2d 640 (1996), identified a reason why suits by police officers
injured on duty are especially troubling: Protesters whose
convictions were held unconstitutional “could … then be sued by
the arresting officers for negligence”—a “back-door attack [on
First Amendment rights] by state actors.” Id. at 648.
8

29

Finally, although the Fifth Circuit opinion here
described petitioner’s alleged conduct as both
“criminal” and “tortious,” Pet. App. 12a—i.e.,
punishable under a misdemeanor statute and
breaching a never-before-recognized duty of
reasonable care owed police, it did not suggest that a
“criminal” act is a prerequisite for liability. Even if
that were the rule, it would do little to limit the
liability risk—and still less to reduce the chill.
“[A]lmost anyone can be arrested for something.”
Nieves, 139 S. Ct. at 1730 (Gorsuch, J., concurring in
part and dissenting in part). Still more people may
plausibly be alleged, under liberal pleading
standards, to have violated a criminal law. That is
most true with respect to street demonstrations,
where localities often enact a dense thicket of
measures, on the basis of which police can make
public-order arrests.
B. The Claiborne protections remain vitally
important.
Although the Claiborne decision, like those
announcing constitutional limitations on incitement
and group-based liability, is, in some sense a product
of the times in which it was forged, it is no relic. See
Cloer, 528 U.S. at 1099 (2000) (Scalia, J., dissenting
from denial of cert.) (counting Claiborne among the
Court’s “significant” First Amendment decisions).
Like those doctrines—and the First Amendment
itself—its protections are viewpoint-neutral. See Juhl
936 S.W.2d at 642–43, (citing Claiborne in dismissing
negligence claims against anti-abortion protesters);
Nwanguma v. Trump, 903 F.3d 604, 610 (6th Cir.
2018) (citing Claiborne in dismissing negligence suit
seeking damages from political candidate for violent
acts committed at campaign rally); see also, e.g.,
30

Forsyth County, 505 U.S. at 137 (citing decisions
protecting Jehovah’s Witnesses to vindicate protest
rights of white supremacists); Packingham, 137 S. Ct.
at 1737 (relying on abortion protest decision to uphold
free speech rights of registered sex offender).
Indeed, the rule is of particular value to the rights
of protestors—be they same-sex marriage opponents
in Berkeley, California or gun control proponents in
Boise, Idaho—who take to the streets to persuade
their fellow citizens to reconsider locally orthodox
opinions.
III. The First Amendment protections the Fifth
Circuit disabled should be reinstated now,
not later.
The clarity and seriousness of the errors below,
and the nature of the rights at stake, support deciding
the question presented now, whether through plenary
or summary consideration.
This is not a situation where “further percolation”
is beneficial or justifiable. The issue “percolated” for
many years, with baleful consequences, before this
Court decided it, unanimously, in 1982 and
announced a clear rule that squarely controls
respondent’s lawsuit. Until the Claiborne rule is
reinstated there, the 33 million residents of Fifth
Circuit States must exercise their First Amendment
rights subject to lawsuits and damages awards that
this Court has held unconstitutional.
Even in circuits where the Claiborne rule has not
been discarded, the Fifth Circuit’s decision poses a
danger, providing a roadmap for protest opponents to
file suits that would—and should—be barred by this
Court’s precedent, and thus a deterrent to would-be
31

protesters, who must consider whether a court might
follow the Fifth Circuit’s lead. These disruptive
effects should be stanched, not encouraged.
The most troubling chilling effects will occur in
“cases” that never make their way to court, let alone
this Court. Persons who, as a result of the rule,
“refrain from exercising their rights” to demonstrate
will not be sued for negligent protesting because they,
instead, simply will not protest. Gooding v. Wilson,
405 U.S. 518, 521 (1972). Vague or overbroad
statutory provisions can be facially challenged and
enjoined before speech is chilled. But here, there is no
plausible mechanism, aside from a decision of this
Court, for would-be speakers to obtain judicial
assurance that they will be constitutionally protected
against liability for unintended third-party
misconduct.
Nor, finally, is this case’s “early procedural
posture”—or the prospect that petitioner will defeat
liability once the complaint’s allegations are tested
reason for withholding review. The First Amendment
issue has been conclusively decided, and there is
nothing tentative or fact-specific about the Fifth
Circuit’s resolution of it.
As in Cox Broadcasting Corp. v. Cohn, where the
Court granted review of a non-final decision of a state
court, see 28 U.S.C. § 1257, the First Amendment
question here is whether the case should proceed “at
all.” 420 U.S. 469, 485 (1975). It is no small matter to
require petitioner to engage in lengthy litigation—at
his own expense—under a rule of law this Court
foreclosed decades ago, one that may not
constitutionally be applied to him or others.
32

Even assuming petitioner eventually will prevail
on some ground, the terms of the Fifth Circuit’s
remand suggest a lengthy slog: The opinion
encouraged respondent to propose new amendments
“in light of” its erroneous theory and seemingly
nudged the district court to look favorably on such
motions and on respondent’s efforts to subject
petitioner to discovery.
In any event, a victory for petitioner on
nonconstitutional grounds would be a defeat for the
First Amendment rights of protesters in the Fifth
Circuit, for whom this decision would remain the
binding, final word and for those elsewhere frightened
by the prospect that they will be sued and, like
petitioner, be required to labor to persuade courts to
enforce their Claiborne rights.
As the Court has recognized repeatedly, the
nature of the particular rights at issue alters the
usual rules of restraint that support “hammer[ing]
out”
legal
questions
through
case-by-case
adjudication. “Vindication of freedom of expression
[should not] await the outcome of protracted
litigation.” Dombrowski v. Pfister, 380 U.S. 479, 487
(1965).
Withholding immediate review would not only
subject protected activity to burdensome litigation,
but would leave protesters nationwide “operating in
the shadow of … a rule of law … the constitutionality
of which is”—at the least—“in serious doubt.” Cox, 420
U.S. at 486. It “would be intolerable to leave
unanswered,” Miami Herald Publishing Co. v.
Tornillo, 418 U.S. 241, 246-47 (1974), important
questions concerning the “limits the First Amendment
33

places on state” law. Fort Wayne Books, Inc. v.
Indiana, 489 U.S. 46, 55 (1989).
CONCLUSION
The petition for a writ of certiorari should be
granted and the decision summarily reversed, or, in
the alternative, the Court should set the case for
plenary review.
Respectfully submitted.
David D. Cole
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
915 15th Street, NW
Washington, DC 20005
Ben Wizner
Vera Eidelman
Brian Hauss
Emerson Sykes
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
125 Broad Street, 18th Floor
New York, NY 10004
William P. Gibbens
Ian Atkinson
SCHONEKAS, EVANS, MCGOEY
& MCEACHIN, LLC
909 Poydras Street, Suite 1600
New Orleans, LA 70112

DECEMBER 2019

34

David T. Goldberg
Counsel of Record
DONAHUE, GOLDBERG,
WEAVER & LITTLETON, LLP
109 S. 5th Street, Suite 4201
Brooklyn, NY 11249
(212) 334-8813
david@donahuegoldberg.com
Katie Schwartzmann
Bruce Hamilton
AMERICAN CIVIL LIBERTIES
UNION FOUNDATION
OF LOUISIANA
P.O. Box 56157
New Orleans, LA 70156

APPENDIX

1a
United States Court of Appeals, Fifth Circuit.
Officer John DOE, Police Officer,
Plaintiff-Appellant
v.
DeRay MCKESSON; Black Lives Matter; Black
Lives Matter Network, Incorporated,
Defendants-Appellees
No. 17-30864
August 8, 2019
ON PETITION FOR PANEL REHEARING
Before JOLLY, ELROD, and WILLETT, Circuit
Judges.
E. GRADY JOLLY, Circuit Judge:
The petition for panel rehearing is hereby
GRANTED. We WITHDRAW the court’s prior opinion
of April 24, 2019, and substitute the following opinion.
During a public protest against police misconduct
in Baton Rouge, Louisiana, an unidentified individual
hit Officer John Doe with a heavy object, causing him
serious physical injuries. Following this incident,
Officer Doe brought suit against “Black Lives Matter,”
the group associated with the protest, and DeRay
Mckesson, one of the leaders of Black Lives Matter
and the organizer of the protest. Officer Doe later
sought to amend his complaint to add Black Lives
Matter Network, Inc. and #BlackLivesMatter as
defendants. The district court dismissed Officer Doe’s
claims on the pleadings under Federal Rule of Civil

2a
Procedure 12(b)(6), and denied his motion to amend
his complaint as futile. Because we conclude that the
district court erred in dismissing the case against
Mckesson on the basis of the pleadings, we REMAND
for further proceedings relative to Mckesson. We
further hold that the district court properly dismissed
the claims against Black Lives Matter. 1 We thus
REVERSE in part, AFFIRM in part, and REMAND
for further proceedings not inconsistent with this
opinion.
I.
On July 9, 2016, a protest took place by blocking a
public highway in front of the Baton Rouge Police
Department headquarters.2 This demonstration was
one in a string of protests across the country, often
associated with Black Lives Matter, concerning police
practices. The Baton Rouge Police Department
prepared by organizing a front line of officers in riot
gear. These officers were ordered to stand in front of
other officers prepared to make arrests. Officer Doe
was one of the officers ordered to make arrests. DeRay
Mckesson, associated with Black Lives Matter, was
the prime leader and an organizer of the protest.
In the presence of Mckesson, some protesters
began throwing objects at the police officers.
Specifically, protestors began to throw full water
bottles, which had been stolen from a nearby
1

We do not address any of the allegations raised by the

Proposed Amended Complaint. See note 5, infra.
This case comes to us on a motion to dismiss, so we
treat all well-pleaded facts as true.
2

3a
convenience store. The dismissed complaint further
alleges that Mckesson did nothing to prevent the
violence or to calm the crowd, and, indeed, alleges that
Mckesson “incited the violence on behalf of [Black
Lives Matter].” The complaint specifically alleges that
Mckesson led the protestors to block the public
highway. The police officers began making arrests of
those blocking the highway and participating in the
violence.
At some point, an unidentified individual picked
up a piece of concrete or a similar rock-like object and
threw it at the officers making arrests. The object
struck Officer Doe’s face. Officer Doe was knocked to
the ground and incapacitated. Officer Doe’s injuries
included loss of teeth, a jaw injury, a brain injury, a
head injury, lost wages, “and other compensable
losses.”
Following the Baton Rouge protest, Officer Doe
brought suit, naming Mckesson and Black Lives
Matter as defendants. According to his complaint, the
defendants are liable on theories of negligence,
respondeat superior, and civil conspiracy. Mckesson
subsequently filed two motions: (1) a Rule 12(b)(6)
motion, asserting that Officer Doe failed to state a
plausible claim for relief against Mckesson and (2) a
Rule 9(a)(2) motion, asserting that Black Lives Matter
is not an entity with the capacity to be sued.
Officer Doe responded by filing a motion to
amend. He sought leave to amend his complaint to add
factual allegations to his complaint and Black Lives
Matter Network, Inc. and #BlackLivesMatter as
defendants.
II.

4a
The district court granted both of Mckesson’s
motions, treating the Rule 9(a)(2) motion as a Rule
12(b)(6) motion, and denied Officer Doe’s motion for
leave to amend, concluding that his proposed
amendment would be futile. With respect to Officer
Doe’s claims against #BlackLivesMatter, the district
court took judicial notice that it is a “hashtag” and
therefore an “expression” that lacks the capacity to be
sued. With respect to Officer Doe’s claims against
Black Lives Matter Network, Inc. the district court
held that Officer Doe’s allegations were insufficient to
state a plausible claim for relief against this entity.
Emphasizing the fact that Officer Doe attempted to
add a social movement and a “hashtag” as defendants,
the district court dismissed his case with prejudice.
Officer Doe timely appealed.
III.
When considering a motion to dismiss under Rule
12(b)(6), we will not affirm dismissal of a claim unless
the plaintiff can prove no set of facts in support of his
claim that would entitle him to relief. Alexander v.
Verizon Wireless Servs., L.L.C., 875 F.3d 243, 249 (5th
Cir. 2017). “We take all factual allegations as true and
construe the facts in the light most favorable to the
plaintiff.” Id. (citing Kelly v. Nichamoff, 868 F.3d 371,
374 (5th Cir. 2017)). To survive, a complaint must
consist of more than “labels and conclusions” or
“naked assertions devoid of further factual
enhancement.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557 (2007) (internal quotation marks and
brackets omitted)). Instead, “the plaintiff must plead
enough facts to nudge the claims across the line from
conceivable to plausible.” Hinojosa v. Livingston, 807

5a
F.3d 657, 684 (5th Cir. 2015) (internal quotation
marks, brackets, and ellipses omitted) (quoting Iqbal,
556 U.S. at 680).3
A district court’s denial of a motion to amend is
generally reviewed for abuse of discretion. Thomas v.
Chevron U.S.A., Inc., 832 F.3d 586, 590 (5th Cir.
2016). However, where the district court’s denial of
leave to amend was based solely on futility, we instead
apply a de novo standard of review identical in
practice to the Rule 12(b)(6) standard. Id. When a
party seeks leave from the court to amend and justice
requires it, the district court should freely give it. Fed.
3 Federal Rule of Civil Procedure Rule 9(a)(2) states that, if
a party wishes to raise an issue regarding lack of capacity to be
sued, “a party must do so by a specific denial.” Rule 12(b) does not
specifically authorize a motion to dismiss based on a lack of
capacity. Nonetheless, we have permitted Rule 12(b) motions
arguing lack of capacity. See, e.g., Darby v. Pasadena Police Dep’t,
939 F.2d 311 (5th Cir. 1992). Where the issue appears on the face
of the complaint, other courts have done the same and treated it
as a Rule 12(b)(6) motion. See, e.g., Klebanow v. N.Y. Produce
Exch., 344 F.2d 294, 296 n.1 (2d Cir. 1965) (“Although the
defense of lack of capacity is not expressly mentioned in [R]ule
12(b), the practice has grown up of examining it by a 12(b)(6)
motion when the defect appears upon the face of the complaint.”);
Coates v. Brazoria Cty. Tex., 894 F.Supp.2d 966, 968 (S.D. Tex.
2012) (“Whether a party has the capacity to sue or be sued is a
legal question that may be decided at the Rule 12 stage.”); see
also 5A Charles Alan Wright & Arthur R. Miller, Federal Practice
and Procedure § 1294 (3d ed. 2018) (“An effective denial of
capacity . . . creates an issue of fact. Such a denial may be made
in the responsive pleading or, if the lack of capacity . . . appears
on the face of the pleadings or is discernible there from, the issue
can be raised by a motion to dismiss for failure to state a claim for
relief.” (footnotes omitted)). Thus, we review the district court’s
dismissal for lack of capacity de novo and apply the Rule 12(b)(6)
standard.

6a
R. Civ. P. 15(a)(2).

IV.
A.
We begin by addressing Officer Doe’s claims
against DeRay Mckesson. The district court did not
reach the merits of Officer Doe’s underlying state tort
claims, but instead found that Officer Doe failed to
plead facts that took Mckesson’s conduct outside of the
bounds of First Amendment protected speech and
association. Because we ultimately find that
Mckesson’s conduct at this pleading stage was not
necessarily protected by the First Amendment, we will
begin by addressing the plausibility of Officer Doe’s
state tort claims. We will address each of Officer Doe’s
specific theories of liability in turn—vicarious
liability, negligence, and civil conspiracy, beginning
with vicarious liability.
1.
Louisiana Civil Code article 2320 provides that
“[m]asters and employers are answerable for the
damage occasioned by their servants and overseers, in
the exercise of the functions which they are
employed.” A “servant,” as used in the Civil Code,
“includes anyone who performs continuous service for
another and whose physical movements are subject to
the control or right to control of the other as to the
manner of performing the service.” Ermert v. Hartford
Ins. Co., 559 So. 2d 467, 476 (La. 1990). Officer Doe’s
vicarious liability theory fails at the point of our

7a
beginning because he does not allege facts that
support an inference that the unknown assailant
“perform[ed] a continuous service” for or that the
assailant’s “physical movements [were] subject to the
control or right to control” of Mckesson. Therefore,
under the pleadings, Mckesson cannot be held liable
under a vicarious liability theory.
2.
We now move on to address Officer Doe’s civil
conspiracy theory. Civil conspiracy is not itself an
actionable tort. Ross v. Conoco, Inc., 828 So. 2d 546,
552 (La. 2002). Instead, it assigns liability arising
from the existence of an underlying unlawful act. Id.
In order to impose liability for civil conspiracy in
Louisiana, a plaintiff must prove that (1) an
agreement existed with one or more persons to commit
an illegal or tortious act; (2) the act was actually
committed; (3) the act resulted in plaintiff’s injury;
and (4) there was an agreement as to the intended
outcome or result. Crutcher-Tufts Res., Inc. v. Tufts,
992 So. 2d 1091, 1094 (La. Ct. App. 2008); see also La.
Civ. Code art. 2324. “Evidence of . . . a conspiracy can
be actual knowledge, overt actions with another, such
as arming oneself in anticipation of apprehension, or
inferred from the knowledge of the alleged
co-conspirator of the impropriety of the actions taken
by the other co-conspirator.” Stephens v. Bail Enf’t,
690 So. 2d 124, 131 (La. Ct. App. 1997).
Officer Doe’s complaint is vague about the
underlying conspiracy to which Mckesson agreed, or
with whom such an agreement was made. In his
complaint, Officer Doe refers to a conspiracy “to incite
a riot/protest.” Disregarding Officer Doe’s conclusory

8a
allegations, we find that Officer Doe has not alleged
facts that would support a plausible claim that
Mckesson can be held liable for his injuries on a theory
of civil conspiracy. Although Officer Doe has alleged
facts that support an inference that Mckesson agreed
with unnamed others to demonstrate illegally on a
public highway, he has not pled facts that would allow
a jury to conclude that Mckesson colluded with the
unknown assailant to attack Officer Doe or knew of
the attack and specifically ratified it. The closest that
Officer Doe comes to such an allegation is when he
states that Mckesson was “giving orders” throughout
the demonstration. But we cannot infer from this
quite unspecific allegation that Mckesson ordered the
unknown assailant to attack Officer Doe. Lacking an
allegation of this pleading quality, Officer Doe’s
conspiracy claim must and does fail.
3.
Finally, we turn to Officer Doe’s negligence
theory. Officer Doe alleges that Mckesson was
negligent for organizing and leading the Baton Rouge
demonstration because he “knew or should have
known” that the demonstration would turn violent.
We agree as follows.
Louisiana Civil Code article 2315 provides that
“[e]very act whatever of man that causes damage to
another obliges him by whose fault it happened to
repair it.” The Louisiana Supreme Court has adopted
a “duty-risk” analysis for assigning tort liability under
a negligence theory. This theory requires a plaintiff to
establish that (1) the plaintiff suffered an injury; (2)
the defendant owed a duty of care to the plaintiff; (3)
the duty was breached by the defendant; (4) the

9a
conduct in question was the cause-in-fact of the
resulting harm; and (5) the risk of harm was within
the scope of protection afforded by the duty breached.
Lazard v. Foti, 859 So. 2d 656, 659 (La. 2003).
Whether a defendant owes a plaintiff a duty is a
question of law. See Posecai v. Wal-Mart Stores, Inc.,
752 So. 2d 762, 766 (La. 1999); Bursztajn v. United
States, 367 F.3d 485, 489 (5th Cir. 2004) (“Under
Louisiana law, the existence of a duty presents a
question of law that ‘varies depending on the facts,
circumstances, and context of each case and is limited
by the particular risk, harm, and plaintiff involved.’”
(quoting Dupre v. Chevron U.S.A., Inc., 20 F.3d 154,
157 (5th Cir. 1994))). There is a “universal duty on the
part of the defendant in negligence cases to use
reasonable care so as to avoid injury to another.”
Boykin v. La. Transit Co., 707 So. 2d 1225, 1231 (La.
1998). Louisiana courts elucidate specific duties of
care based on consideration of “various moral, social,
and economic factors, including the fairness of
imposing liability; the economic impact on the
defendant and on similarly situated parties; the need
for an incentive to prevent future harm; the nature of
defendant’s
activity;
the
potential
for
an
unmanageable flow of litigation; the historical
development of precedent; and the direction in which
society and its institutions are evolving.” Posecai, 752
So. 2d at 766.
We first note that this case comes before us from a
dismissal on the pleadings alone. In this context, we
find that Officer Doe has plausibly alleged that
Mckesson breached his duty of reasonable care in the
course of organizing and leading the Baton Rouge
demonstration. The complaint specifically alleges that

10a
it was Mckesson himself who intentionally led the
demonstrators to block the highway. Blocking a public
highway is a criminal act under Louisiana law. See
La. Rev. Stat. Ann. § 14:97. As such, it was patently
foreseeable that the Baton Rouge police would be
required to respond to the demonstration by clearing
the highway and, when necessary, making arrests.
Given the intentional lawlessness of this aspect of the
demonstration, Mckesson should have known that
leading the demonstrators onto a busy highway was
most nearly certain to provoke a confrontation
between police and the mass of demonstrators, yet he
ignored the foreseeable danger to officers, bystanders,
and demonstrators, and notwithstanding, did so
anyway. By ignoring the foreseeable risk of violence
that his actions created, Mckesson failed to exercise
reasonable care in conducting his demonstration.
Officer Doe has also plausibly alleged that
Mckesson’s breach of duty was the cause-in-fact of
Officer Doe’s injury and that the injury was within the
scope of the duty breached by Mckesson. It may have
been an unknown demonstrator who threw the hard
object at Officer Doe, but by leading the
demonstrators onto the public highway and provoking
a violent confrontation with the police, Mckesson’s
negligent actions were the “but for” causes of Officer
Doe’s injuries. See Roberts v. Benoit, 605 So. 2d 1032,
1052 (La. 1992) (“To meet the cause-in-fact element, a
plaintiff must prove only that the conduct was a
necessary antecedent of the accident, that is, but for
the defendant’s conduct, the incident probably would
not have occurred.”). Furthermore, as the purpose of
imposing a duty on Mckesson in this situation is to
prevent foreseeable violence to the police and

11a
bystanders, Officer Doe’s injury, as alleged in the
pleadings, was within the scope of the duty of care
allegedly breached by Mckesson.
We iterate what we have previously noted: Our
ruling at this point is not to say that a finding of
liability will ultimately be appropriate. At the motion
to dismiss stage, however, we are simply required to
decide whether Officer Doe’s claim for relief is
sufficiently plausible to allow him to proceed to
discovery. We find that it is.
B.
Having concluded that Officer Doe has stated a
plausible claim for relief against Mckesson under
state tort law, we will now take a step back and
address the district court’s determination that Officer
Doe’s complaint should be dismissed based on the
First Amendment. The Supreme Court has made clear
that “[t]he First Amendment does not protect
violence.” N.A.A.C.P. v. Claiborne Hardware Co., 458
U.S. 886, 916 (1982). Nonetheless, the district court
dismissed the complaint on First Amendment
grounds, reasoning that “[i]n order to state a claim
against Mckesson to hold him liable for the tortious
act of another with whom he was associating during
the demonstration, Plaintiff would have to allege facts
that tend to demonstrate that Mckesson ‘authorized,
directed, or ratified specific tortious activity.’” See id.
at 927. The district court then went on to find that
there were no plausible allegations that Mckesson had
done so in his complaint.
The district court appears to have assumed that

12a
in order to state a claim that Mckesson was liable for
his injuries, Officer Doe was required to allege facts
that created an inference that Mckesson directed,
authorized, or ratified the unknown assailant’s
specific conduct in attacking Officer Doe. This
assumption, however, does not fit the situation we
address today. Even if we assume that Officer Doe
seeks to hold Mckesson “liable for the unlawful
conduct of others” within the meaning of Claiborne
Hardware, the First Amendment would not require
dismissal of Officer Doe’s complaint. Id. In order to
counter Mckesson’s First Amendment defense at the
pleading stage Officer Doe simply needed to plausibly
allege that his injuries were one of the “consequences”
of “tortious activity,” which itself was “authorized,
directed, or ratified” by Mckesson in violation of his
duty of care. See id. (“[A] finding that [the defendant]
authorized, directed, or ratified specific tortious
activity would justify holding him responsible for the
consequences of that activity.”). Our discussion above
makes clear that Officer Doe’s complaint does allege
that Mckesson directed the demonstrators to engage
in the criminal act of occupying the public highway,
which quite consequentially provoked a confrontation
between the Baton Rouge police and the protesters,
and that Officer Doe’s injuries were the foreseeable
result of the tortious and illegal conduct of blocking a
busy highway.
We focus here on the fact that Mckesson “directed
. . . specific tortious activity” because we hold that
Officer Doe has adequately alleged that his injuries
were the result of Mckesson’s own tortious conduct in
organizing a foreseeably violent protest. In
Mckesson’s petition for rehearing, he expresses

13a
concern that the panel opinion permits Officer Doe to
hold him liable for the tortious conduct of others even
though Officer Doe merely alleged that he was
negligent, and not that he specifically intended that
violence would result. We think that Mckesson’s
criticisms
are
misplaced.
We
perceive
no
Constitutional issue with Mckesson being held liable
for injuries caused by a combination of his own
negligent conduct and the violent actions of a another
that were foreseeable as a result of that negligent
conduct. The permissibility of such liability is a
standard aspect of state law. See Restatement (Third)
of Torts: Liability for Physical and Emotional Harm §
19 (2010) (“The conduct of a defendant can lack
reasonable care insofar as it foreseeably combines
with or permits the improper conduct of the plaintiff
or a third party.”). There is no indication in Claiborne
Hardware or subsequent decisions that the Supreme
Court intended to restructure state tort law by
eliminating this principle of negligence liability.
We of course acknowledge that Mckesson’s
negligent conduct took place in the context of a
political protest. It is certainly true that “the presence
of activity protected by the First Amendment imposes
restraints on the grounds that may give rise to
damages liability and on the persons who may be held
accountable for those damages.” Claiborne Hardware,
468 U.S. at 916–17. But Claiborne Hardware does not
insulate the petitioner from liability for his own
negligent conduct simply because he, and those he
associated with, also intended to communicate a
message. See id. at 916 (“[T]he use of weapons,
gunpowder, and gasoline may not constitutionally
masquerade under the guise of advocacy.”) (internal

14a
quotation marks and citations omitted). Furthermore,
although we do not understand the petitioner to be
arguing that the Baton Rouge police violated the
demonstrators’
First
Amendment
rights
by
attempting to remove them from the highway, we note
that the criminal conduct allegedly ordered by
Mckesson was not itself protected by the First
Amendment, as Mckesson ordered the demonstrators
to violate a reasonable time, place, and manner
restriction by blocking the public highway. See Clark
v. Cmty. for Creative Non-Violence, 468 U.S. 288, 293
(1984) (reasonable time, place, and manner
restrictions do not violate the First Amendment). As
such, no First Amendment protected activity is
suppressed by allowing the consequences of
Mckesson’s conduct to be addressed by state tort law.
Thus, on the pleadings, which must be read in a
light most favorable to Officer Doe, the First
Amendment is not a bar to Officer Doe’s negligence
theory. The district court erred by dismissing Officer
Doe’s complaint—at the pleading stage—as barred by
the First Amendment.4
We emphasize, however, that our opinion does not suggest
that the First Amendment allows a person to be punished, or
held civilly liable, simply because of his associations with others,
unless it is established that the group that the person associated
with “itself possessed unlawful goals and that the individual held
a specific intent to further those illegal aims.” Claiborne
Hardware, 458 U.S. at 920. But we also observe that, in any
event, Officer Doe’s allegations are sufficient to state a claim that
Black Lives Matter “possessed unlawful goals” and that
Mckesson “held a specific intent to further those illegal aims.”
See id. Officer Doe alleges that Black Lives Matter “plann[ed] to
block a public highway,” and, in his amended complaint, that
Mckesson and Black Lives Matter traveled to Baton Rouge “for
4

15a
C.
Now we turn our attention to whether Officer Doe
has stated a claim against Black Lives Matter. The
district court took judicial notice that “‘Black Lives
Matter,’ as that term is used in the Complaint, is a
social movement that was catalyzed on social media by
the persons listed in the Complaint in response to the
perceived mistreatment of African-American citizens
by law enforcement officers.” Based on this conclusion,
the district court held that Black Lives Matter is not a
“juridical person” capable of being sued. See Ermert,
559 So. 2d at 474. We first address the district court’s
taking of judicial notice, then Black Lives Matter’s
alleged capacity to be sued.
Federal Rule of Evidence 201 provides that a
court may take judicial notice of an “adjudicative fact”
if the fact is “not subject to reasonable dispute” in that
it is either (1) generally known within the territorial
jurisdiction of the trial court or (2) capable of accurate
and ready determination by resort to sources whose
accuracy cannot be questioned. Fed. R. Evid. 201(b).
“Rule 201 authorizes the court to take notice only of
‘adjudicative facts,’ not legal determinations.” Taylor
v. Charter Med. Corp., 162 F.3d 827, 831 (5th Cir.
1998). In Taylor, we held that another court’s state
actor determination was not an “adjudicative fact”
within the meaning of Rule 201 because “[w]hether a
private party is a state actor for the purposes of § 1983
is a mixed question of fact and law and is thus subject
to our de novo review.” Id. at 830–31. We further held
that the state-actor determination was not beyond
the purpose of . . . rioting.” (emphasis added).

16a
reasonable dispute where it “was, in fact, disputed by
the parties” in the related case. Id. at 830.
We think that the district court was incorrect to
take judicial notice of a mixed question of fact and law
when it concluded that Black Lives Matter is a “social
movement, rather than an organization or entity of
any sort.” The legal status of Black Lives Matter is not
immune from reasonable dispute; and, indeed, it is
disputed by the parties—Doe claiming that Black
Lives Matter is a national unincorporated association,
and Mckesson claiming that it is a movement or at
best a community of interest. This difference is
sufficient under our case law to preclude judicial
notice.
We should further say that we see the cases relied
on by the district court as distinguishable. Each deals
with judicial notice of an aspect of an entity, not its
legal form. See United States v. Parise, 159 F.3d 790,
801 (3d Cir. 1998) (holding that the court could take
judicial notice of the aims and goals of a movement);
Atty. Gen. of U.S. v. Irish N. Aid. Comm., 530 F. Supp.
241, 259–60 (S.D.N.Y. 1981) (stating the court could
take “notice that the IRA is a ‘Republican movement,’
at least insofar as it advocates a united Ireland”
(emphasis added)); see also Baggett v. Bullitt, 377 U.S.
360, 376 n.13 (1964) (noting that “[t]he lower court
took judicial notice of the fact that the Communist
Party of the United States . . . was a part of the world
Communist movement” (emphasis added)).
Now, we move on to discuss the merits of Officer
Doe’s contention that Black Lives Matter is a suable
entity. He alleges that Black Lives Matter “is a
national incorporated association with chapter [sic] in

17a
many states.” Under Federal Rule of Civil Procedure
17(b), the capacity of an entity “to sue or be sued is
determined . . . by the law of the state where the court
is located.” Under Article 738 of the Louisiana Code of
Civil Procedure, “an unincorporated association has
the procedural capacity to be sued in its own name.”
The Louisiana Supreme Court has held that “an
unincorporated association is created in the same
manner as a partnership, by a contract between two or
more persons to combine their efforts, resources,
knowledge or activities for a purpose other than profit
or commercial benefit.” Ermert, 559 So. 2d at 473.
“Interpretation of a contract is the determination of
the common intent of the parties.” La. Civ. Code Ann.
art. 2045. To show intent, “the object of the contract of
association must necessarily be the creation of an
entity whose personality ‘is distinct from that of its
members.’” Ermert, 559 So. 2d at 474 (quoting La. Civ.
Code Ann. art. 24). Louisiana law does not provide for
a public display of the parties’ intent. Id.
Louisiana courts have looked to various factors as
indicative of an intent to create an unincorporated
association, including requiring dues, having
insurance, ownership of property, governing
agreements, or the presence of a formal membership
structure. See Bogue Lusa Waterworks Dist. v. La.
Dep’t of Envtl. Quality, 897 So. 2d 726, 728-729 (La.
Ct. App. 2004) (relying on organization’s unfiled
articles of incorporation); Friendship Hunting Club v.
Lejeune, 999 So. 2d 216, 223 (La. Ct. App. 2008)
(relying on organization’s required dues and
possession of an insurance policy); see also Concerned
Citizens Around Murphy v. Murphy Oil USA, Inc., 686
F.Supp.2d 663, 675 (E.D. La. 2010) (relying on

18a
organization’s formal and determinate membership
structure). Lacking at least some of these indicators,
Louisiana courts have been unwilling to find an intent
to create an unincorporated association. See, e.g.,
Ermert, 559 So. 2d at 474–475 (finding that hunting
group was not an unincorporated association because
it did not own or lease the property that it was based
on, required the permission of one of its alleged
members to use the property, and lacked formal rules
or bylaws).
Officer Doe has not shown in his complaint a
plausible inference that Black Lives Matter is an
unincorporated association. His only allegations are
that Black Lives Matter: (1) was created by three
women; (2) has several leaders, including Mckesson;
(3) has chapters in many states; and (4) was involved
in numerous protests in response to police practices.
He does not allege that it possesses property, has a
formal membership, requires dues, or possesses a
governing agreement. As such, the complaint lacks
any indication that Black Lives Matter possesses the
traits that Louisiana courts have regarded as
indicative of an intent to establish a juridical entity.
We have no doubt that Black Lives Matter involves a
number of people working in concert, but “an
unincorporated association . . . . does not come into
existence or commence merely by virtue of the
fortuitous creation of a community of interest or the
fact that a number of individuals have simply acted
together.” Id. at 474. Therefore, we find that the
district court did not err in concluding that Officer
Doe’s complaint has failed plausibly to allege that

19a
Black Lives Matter is an entity capable of being sued.5
V.
In sum, we hold that Officer Doe has not
adequately alleged that Mckesson was vicariously
liable for the conduct of the unknown assailant or that
Mckesson entered into a civil conspiracy with the
purpose of injuring Officer Doe. We do find, however,
that Officer Doe adequately alleged that Mckesson is
liable in negligence for organizing and leading the
Baton Rouge demonstration to illegally occupy a
highway. We further find that in this context the
district court erred in dismissing the suit on First
Amendment grounds. As such, Officer Doe has
pleaded a claim for relief against DeRay Mckesson in
his active complaint.6 We also hold that the district
court erred by taking judicial notice of the legal status
of “Black Lives Matter,” but nonetheless find that
Officer Doe did not plead facts that would allow us to
conclude that Black Lives Matter is an entity capable
of being sued.7 Therefore, the judgment of the district
We do not address as to whether Officer Doe could state a
claim against an entity whose capacity to be sued was plausibly
alleged, nor do we address whether Mckesson could be held liable
for the actions of that entity under state law.
5

Officer Doe has complained of the lack of discovery in this
case, particularly related to his claims against the corporate
defendants. Officer Doe is free to argue before the district court
that he is entitled to discovery. The district court may then
decide whether, in the light of our remand, discovery would be
appropriate.
6

Because we find that Officer Doe has successfully pled a
claim, we do not reach the district court’s denial of Officer Doe’s
motion for leave to amend. See Lormand v. US Unwired, Inc., 565
F.3d 228, 268 n.36 (5th Cir. 2009) (citing Xerox Corp. v.
7

20a
court is AFFIRMED in part, REVERSED in part, and
the case is REMANDED for further proceedings not
inconsistent with this opinion.8
Genmoora Corp., 888 F.2d 345, 358 n.70 (5th Cir. 1989)). It
follows that we do not address any of the allegations in the
Proposed Amended Complaint or the parties it seeks to add. On
remand, Officer Doe may seek leave to amend his complaint to
add new parties and plead additional facts to support his
negligence claim. The district court should determine whether to
grant this motion, and any new motions for leave to amend, in
the light of our opinion.
On appeal, Officer Doe also argues that the district court
erred in denying his request to proceed anonymously as John
Doe. He argues that the public nature of his job puts him and his
family in danger of additional violence. At the district court, he
listed a number of examples of acts of violence against police
officers by individuals who may have some connection with Black
Lives Matter. In its order, the district court walked through three
factors common to anonymous-party suits that we have said
“deserve considerable weight.” Doe v. Stegall, 653 F.2d 180, 186
(5th Cir. 1981). These are: (1) whether the plaintiff is
“challeng[ing] governmental activity”; (2) whether the plaintiff
will be required to disclose information “of the utmost intimacy”;
and (3) whether the plaintiff will be “compelled to admit [his]
intention to engage in illegal conduct, thereby risking criminal
prosecution.” Id. at 185. The district court concluded that none of
these factors applied to the facts of this case. In response to
Officer Doe’s argument regarding potential future violence, the
district court noted that the incidents Officer Doe listed did not
involve Officer Doe and were not related to this lawsuit. In fact,
at oral argument before the district court regarding his motion,
Officer Doe conceded that he had received no particularized
threats of violence since filing his lawsuit. The district court
instead saw the incidents Officer Doe listed as evidence of “the
generalized threat of violence that all police officers face.” As a
result, the district found that Doe had not demonstrated a
privacy interest that outweighs the “customary and
constitutionally embedded presumption of openness in judicial
proceedings.” Id. at 186. We agree with the district court and
8

21a
AFFIRMED in part, REVERSED in part, and
REMANDED.

affirm the denial of Doe’s motion to proceed anonymously. In so
holding, we emphasize what the Supreme Court said decades
ago: “What transpires in the court room is public property.” Craig
v. Harney, 331 U.S. 367, 374 (1947).

22a
United States Court of Appeals, Fifth Circuit.
Officer John DOE, Police Officer,
Plaintiff-Appellant
v.
DeRay MCKESSON; Black Lives Matter;
Black Lives Matter Network, Incorporated,
Defendants-Appellees
No. 17-30864
April 24, 2019
Before JOLLY, ELROD, and WILLETT, Circuit
Judges.
E. GRADY JOLLY, Circuit Judge:
During a public protest against police misconduct
in Baton Rouge, Louisiana, an unidentified
individual hit Officer John Doe with a heavy object,
causing him serious physical injuries. Following this
incident, Officer Doe brought suit against “Black
Lives Matter,” the group associated with the protest,
and DeRay Mckesson, one of the leaders of Black
Lives Matter and the organizer of the protest. Officer
Doe later sought to amend his complaint to add Black
Lives Matter Network, Inc. and #BlackLivesMatter
as defendants. The district court dismissed Officer
Doe’s claims on the pleadings under Federal Rule of
Civil Procedure 12(b)(6), and denied his motion to
amend his complaint as futile. Because we conclude
that the district court erred in dismissing the case
against Mckesson on the basis of the pleadings, we
REMAND for further proceedings relative to
Mckesson. We further hold that the district court
properly dismissed the claims against Black Lives

23a
Matter. 1 We thus REVERSE in part, AFFIRM in
part, and REMAND for further proceedings not
inconsistent with this opinion.
I.
On July 9, 2016, a protest took place by blocking a
public highway in front of the Baton Rouge Police
Department headquarters.2 This demonstration was
one in a string of protests across the country, often
associated with Black Lives Matter, concerning police
practices. The Baton Rouge Police Department
prepared by organizing a front line of officers in riot
gear. These officers were ordered to stand in front of
other officers prepared to make arrests. Officer Doe
was one of the officers ordered to make arrests.
DeRay Mckesson, associated with Black Lives
Matter, was the prime leader and an organizer of the
protest.
In the presence of Mckesson, some protesters
began throwing objects at the police officers.
Specifically, protestors began to throw full water
bottles, which had been stolen from a nearby
convenience store. The dismissed complaint further
alleges that Mckesson did nothing to prevent the
violence or to calm the crowd, and, indeed, alleges
that Mckesson “incited the violence on behalf of
[Black Lives Matter].” The complaint specifically
alleges that Mckesson led the protestors to block the
public highway. The police officers began making
arrests of those blocking the highway and
participating in the violence.
We do not address any of the allegations raised by the
Proposed Amended Complaint. See note 5, infra.
1

2 This case comes to us on a motion to dismiss, so we treat
all well-pleaded facts as true.

24a
At some point, an unidentified individual picked
up a piece of concrete or a similar rock-like object and
threw it at the officers making arrests. The object
struck Officer Doe’s face. Officer Doe was knocked to
the ground and incapacitated. Officer Doe’s injuries
included loss of teeth, a jaw injury, a brain injury, a
head injury, lost wages, “and other compensable
losses.”
Following the Baton Rouge protest, Officer Doe
brought suit, naming Mckesson and Black Lives
Matter as defendants. According to his complaint, the
defendants are liable on theories of negligence,
respondeat superior, and civil conspiracy. Mckesson
subsequently filed two motions: (1) a Rule 12(b)(6)
motion, asserting that Officer Doe failed to state a
plausible claim for relief against Mckesson and (2) a
Rule 9(a)(2) motion, asserting that Black Lives
Matter is not an entity with the capacity to be sued.
Officer Doe responded by filing a motion to
amend. He sought leave to amend his complaint to
add factual allegations to his complaint and Black
Lives Matter Network, Inc. and #BlackLivesMatter
as defendants.
II.
The district court granted both of Mckesson’s
motions, treating the Rule 9(a)(2) motion as a Rule
12(b)(6) motion, and denied Officer Doe’s motion for
leave to amend, concluding that his proposed
amendment would be futile. With respect to Officer
Doe’s claims against #BlackLivesMatter, the district
court took judicial notice that it is a “hashtag” and
therefore an “expression” that lacks the capacity to be
sued. With respect to Officer Doe’s claims against
Black Lives Matter Network, Inc. the district court

25a
held that Officer Doe’s allegations were insufficient to
state a plausible claim for relief against this entity.
Emphasizing the fact that Officer Doe attempted to
add a social movement and a “hashtag” as
defendants, the district court dismissed his case with
prejudice. Officer Doe timely appealed.
III.
When considering a motion to dismiss under Rule
12(b)(6), we will not affirm dismissal of a claim unless
the plaintiff can prove no set of facts in support of his
claim that would entitle him to relief. Alexander v.
Verizon Wireless Servs., L.L.C., 875 F.3d 243, 249
(5th Cir. 2017). “We take all factual allegations as
true and construe the facts in the light most favorable
to the plaintiff.” Id. (citing Kelly v. Nichamoff, 868
F.3d 371, 374 (5th Cir. 2017)). To survive, a complaint
must consist of more than “labels and conclusions” or
“naked assertions devoid of further factual
enhancement.” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S.
544, 557 (2007) (internal quotation marks and
brackets omitted)). Instead, “the plaintiff must plead
enough facts to nudge the claims across the line from
conceivable to plausible.” Hinojosa v. Livingston, 807
F.3d 657, 684 (5th Cir. 2015) (internal quotation
marks, brackets, and ellipses omitted) (quoting Iqbal,
556 U.S. at 680).3
Federal Rule of Civil Procedure Rule 9(a)(2) states that, if
a party wishes to raise an issue regarding lack of capacity to be
sued, “a party must do so by a specific denial.” Rule 12(b) does
not specifically authorize a motion to dismiss based on a lack of
capacity. Nonetheless, we have permitted Rule 12(b) motions
arguing lack of capacity. See, e.g., Darby v. Pasadena Police
Dep’t, 939 F.2d 311 (5th Cir. 1992). Where the issue appears on
the face of the complaint, other courts have done the same and
3

26a
A district court’s denial of a motion to amend is
generally reviewed for abuse of discretion. Thomas v.
Chevron U.S.A., Inc., 832 F.3d 586, 590 (5th Cir.
2016). However, where the district court’s denial of
leave to amend was based solely on futility, we
instead apply a de novo standard of review identical
in practice to the Rule 12(b)(6) standard. Id. When a
party seeks leave from the court to amend and justice
requires it, the district court should freely give it.
Fed. R. Civ. P. 15(a)(2).
IV.
A.
We begin by addressing Officer Doe’s claims
against DeRay Mckesson. The district court did not
reach the merits of Officer Doe’s underlying state tort
claims, but instead found that Officer Doe failed to
plead facts that took Mckesson’s conduct outside of
the bounds of First Amendment protected speech and
association. Because we ultimately find that
treated it as a Rule 12(b)(6) motion. See, e.g., Klebanow v. N.Y.
Produce Exch., 344 F.2d 294, 296 n.1 (2d Cir. 1965) (“Although
the defense of lack of capacity is not expressly mentioned in
[R]ule 12(b), the practice has grown up of examining it by a
12(b)(6) motion when the defect appears upon the face of the
complaint.”); Coates v. Brazoria Cty. Tex., 894 F.Supp.2d 966,
968 (S.D. Tex. 2012) (“Whether a party has the capacity to sue or
be sued is a legal question that may be decided at the Rule 12
stage.”); see also 5A Charles Alan Wright & Arthur R. Miller,
Federal Practice and Procedure § 1294 (3d ed. 2018) (“An
effective denial of capacity . . . creates an issue of fact. Such a
denial may be made in the responsive pleading or, if the lack of
capacity . . . appears on the face of the pleadings or is
discernible there from, the issue can be raised by a motion to
dismiss for failure to state a claim for relief.” (footnotes
omitted)). Thus, we review the district court’s dismissal for lack
of capacity de novo and apply the Rule 12(b)(6) standard.

27a
Mckesson’s conduct at this pleading stage was not
necessarily protected by the First Amendment, we
will begin by addressing the plausibility of Officer
Doe’s state tort claims. We will address each of
Officer Doe’s specific theories of liability in
turn—vicarious liability, negligence, and civil
conspiracy, beginning with vicarious liability.
1.
Louisiana Civil Code article 2320 provides that
“[m]asters and employers are answerable for the
damage occasioned by their servants and overseers,
in the exercise of the functions which they are
employed.” A “servant,” as used in the Civil Code,
“includes anyone who performs continuous service for
another and whose physical movements are subject to
the control or right to control of the other as to the
manner of performing the service.” Ermert v.
Hartford Ins. Co., 559 So. 2d 467, 476 (La. 1990).
Officer Doe’s vicarious liability theory fails at the
point of our beginning because he does not allege
facts that support an inference that the unknown
assailant “perform[ed] a continuous service” for or
that the assailant’s “physical movements [were]
subject to the control or right to control” of Mckesson.
Therefore, under the pleadings, Mckesson cannot be
held liable under a vicarious liability theory.
2.
We now move on to address Officer Doe’s civil
conspiracy theory. Civil conspiracy is not itself an
actionable tort. Ross v. Conoco, Inc., 828 So. 2d 546,
552 (La. 2002). Instead, it assigns liability arising
from the existence of an underlying unlawful act. Id.
In order to impose liability for civil conspiracy in
Louisiana, a plaintiff must prove that (1) an

28a
agreement existed with one or more persons to
commit an illegal or tortious act; (2) the act was
actually committed; (3) the act resulted in plaintiff’s
injury; and (4) there was an agreement as to the
intended outcome or result. Crutcher-Tufts Res., Inc.
v. Tufts, 992 So. 2d 1091, 1094 (La. Ct. App. 2008); see
also La. Civ. Code art. 2324. “Evidence of . . . a
conspiracy can be actual knowledge, overt actions
with another, such as arming oneself in anticipation
of apprehension, or inferred from the knowledge of
the alleged co-conspirator of the impropriety of the
actions taken by the other co-conspirator.” Stephens
v. Bail Enf’t, 690 So. 2d 124, 131 (La. Ct. App. 1997).
Officer Doe’s complaint is vague about the
underlying conspiracy to which Mckesson agreed, or
with whom such an agreement was made. In his
complaint, Officer Doe refers to a conspiracy “to incite
a riot/protest.” Disregarding Officer Doe’s conclusory
allegations, we find that Officer Doe has not alleged
facts that would support a plausible claim that
Mckesson can be held liable for his injuries on a
theory of civil conspiracy. Although Officer Doe has
alleged facts that support an inference that Mckesson
agreed with unnamed others to demonstrate illegally
on a public highway, he has not pled facts that would
allow a jury to conclude that Mckesson colluded with
the unknown assailant to attack Officer Doe, knew of
the attack and ratified it, or agreed with other named
persons that attacking the police was one of the goals
of the demonstration. The closest that Officer Doe
comes to such an allegation is when he states that
Mckesson was “giving orders” throughout the
demonstration. But we cannot infer from this quite
unspecific allegation that Mckesson ordered the
unknown assailant to attack Officer Doe. Lacking an
allegation of this pleading quality, Officer Doe’s

29a
conspiracy claim must and does fail.
3.
Finally, we turn to Officer Doe’s negligence
theory. Officer Doe alleges that Mckesson was
negligent for organizing and leading the Baton Rouge
demonstration because he “knew or should have
known” that the demonstration would turn violent.
We agree as follows.
Louisiana Civil Code article 2315 provides that
“[e]very act whatever of man that causes damage to
another obliges him by whose fault it happened to
repair it.” The Louisiana Supreme Court has adopted
a “duty-risk” analysis for assigning tort liability
under a negligence theory. This theory requires a
plaintiff to establish that (1) the plaintiff suffered an
injury; (2) the defendant owed a duty of care to the
plaintiff; (3) the duty was breached by the defendant;
(4) the conduct in question was the cause-in-fact of
the resulting harm; and (5) the risk of harm was
within the scope of protection afforded by the duty
breached. Lazard v. Foti, 859 So. 2d 656, 659 (La.
2003). Whether a defendant owes a plaintiff a duty is
a question of law. See Posecai v. Wal-Mart Stores,
Inc., 752 So. 2d 762, 766 (La. 1999); Bursztajn v.
United States, 367 F.3d 485, 489 (5th Cir. 2004)
(“Under Louisiana law, the existence of a duty
presents a question of law that ‘varies depending on
the facts, circumstances, and context of each case and
is limited by the particular risk, harm, and plaintiff
involved.’” (quoting Dupre v. Chevron U.S.A., Inc., 20
F.3d 154, 157 (5th Cir. 1994))). There is a “universal
duty on the part of the defendant in negligence cases
to use reasonable care so as to avoid injury to
another.” Boykin v. La. Transit Co., 707 So. 2d 1225,
1231 (La. 1998). Louisiana courts elucidate specific

30a
duties of care based on consideration of “various
moral, social, and economic factors, including the
fairness of imposing liability; the economic impact on
the defendant and on similarly situated parties; the
need for an incentive to prevent future harm; the
nature of defendant’s activity; the potential for an
unmanageable flow of litigation; the historical
development of precedent; and the direction in which
society and its institutions are evolving.” Posecai, 752
So. 2d at 766.
We first note that this case comes before us from
a dismissal on the pleadings alone. In this context, we
find that Officer Doe has plausibly alleged that
Mckesson breached his duty of reasonable care in the
course of organizing and leading the Baton Rouge
demonstration. The complaint specifically alleges
that it was Mckesson himself who intentionally led
the demonstrators to block the highway. Blocking a
public highway is a criminal act under Louisiana law.
See La. Rev. Stat. Ann. § 14:97. As such, it was
patently foreseeable that the Baton Rouge police
would be required to respond to the demonstration by
clearing the highway and, when necessary, making
arrests. Given the intentional lawlessness of this
aspect of the demonstration, Mckesson should have
known that leading the demonstrators onto a busy
highway was most nearly certain to provoke a
confrontation between police and the mass of
demonstrators, yet he ignored the foreseeable danger
to officers, bystanders, and demonstrators, and
notwithstanding, did so anyway. By ignoring the
foreseeable risk of violence that his actions created,
Mckesson failed to exercise reasonable care in
conducting his demonstration.
Officer Doe has also plausibly alleged that

31a
Mckesson’s breach of duty was the cause-in-fact of
Officer Doe’s injury and that the injury was within
the scope of the duty breached by Mckesson. It may
have been an unknown demonstrator who threw the
hard object at Officer Doe, but by leading the
demonstrators onto the public highway and
provoking a violent confrontation with the police,
Mckesson’s negligent actions were the “but for”
causes of Officer Doe’s injuries. See Roberts v. Benoit,
605 So. 2d 1032, 1052 (La. 1992) (“To meet the
cause-in-fact element, a plaintiff must prove only
that the conduct was a necessary antecedent of the
accident, that is, but for the defendant’s conduct, the
incident probably would not have occurred.”).
Furthermore, as the purpose of imposing a duty on
Mckesson in this situation is to prevent foreseeable
violence to the police and bystanders, Officer Doe’s
injury, as alleged in the pleadings, was within the
scope of the duty of care allegedly breached by
Mckesson.
We iterate what we have previously noted: Our
ruling at this point is not to say that a finding of
liability will ultimately be appropriate. At the motion
to dismiss stage, however, we are simply required to
decide whether Officer Doe’s claim for relief is
sufficiently plausible to allow him to proceed to
discovery. We find that it is.
B.
Having concluded that Officer Doe has stated a
plausible claim for relief against Mckesson under
state tort law, we will now take a step back and
address the district court’s determination that Officer
Doe’s complaint should be dismissed based on the
First Amendment. The Supreme Court has made
clear that “[t]he First Amendment does not protect

32a
violence.” N.A.A.C.P. v. Claiborne Hardware Co., 458
U.S. 886, 916 (1982). Nonetheless, the district court
dismissed the complaint on First Amendment
grounds, reasoning that “[i]n order to state a claim
against Mckesson to hold him liable for the tortious
act of another with whom he was associating during
the demonstration, Plaintiff would have to allege
facts that tend to demonstrate that Mckesson
‘authorized, directed, or ratified specific tortious
activity.’” See id. at 927. The district court then went
on to find that there were no plausible allegations
that Mckesson had done so in his complaint.
We respectfully disagree. The district court
appears to have assumed that in order to state a
claim that Mckesson was liable for his injuries,
Officer Doe was required to allege facts that created
an inference that Mckesson directed, authorized, or
ratified the unknown assailant’s specific conduct in
attacking Officer Doe. This assumption, however,
does not fit the situation we address today. Assuming
that the First Amendment is applicable to Mckesson’s
conduct, in order to counter its applicability at the
pleading stage, Officer Doe simply needed to
plausibly allege that his injuries were one of the
“consequences” of “tortious activity,” which itself was
“authorized, directed, or ratified” by Mckesson in
violation of his duty of care. See id. (“[A] finding that
[the defendant] authorized, directed, or ratified
specific tortious activity would justify holding him
responsible for the consequences of that activity.”).
Our discussion above makes clear that Officer Doe’s
complaint does allege that Mckesson directed the
demonstrators to engage in the criminal act of
occupying the public highway, which quite
consequentially provoked a confrontation between
the Baton Rouge police and the protesters, and that

33a
Officer Doe’s injuries were the foreseeable result of
the tortious and illegal conduct of blocking a busy
highway. Thus, on the pleadings, which must be read
in a light most favorable to Officer Doe, the First
Amendment is not a bar to Officer Doe’s negligence
theory. The district court erred by dismissing Officer
Doe’s complaint—at the pleading stage—as barred by
the First Amendment.
C.
Now we turn our attention to whether Officer Doe
has stated a claim against Black Lives Matter. The
district court took judicial notice that “‘Black Lives
Matter,’ as that term is used in the Complaint, is a
social movement that was catalyzed on social media
by the persons listed in the Complaint in response to
the perceived mistreatment of African-American
citizens by law enforcement officers.” Based on this
conclusion, the district court held that Black Lives
Matter is not a “juridical person” capable of being
sued. See Ermert, 559 So. 2d at 474. We first address
the district court’s taking of judicial notice, then
Black Lives Matter’s alleged capacity to be sued.
Federal Rule of Evidence 201 provides that a
court may take judicial notice of an “adjudicative
fact” if the fact is “not subject to reasonable dispute”
in that it is either (1) generally known within the
territorial jurisdiction of the trial court or (2) capable
of accurate and ready determination by resort to
sources whose accuracy cannot be questioned. Fed. R.
Evid. 201(b). “Rule 201 authorizes the court to take
notice only of ‘adjudicative facts,’ not legal
determinations.” Taylor v. Charter Med. Corp., 162
F.3d 827, 831 (5th Cir. 1998). In Taylor, we held that
another court’s state actor determination was not an
“adjudicative fact” within the meaning of Rule 201

34a
because “[w]hether a private party is a state actor for
the purposes of § 1983 is a mixed question of fact and
law and is thus subject to our de novo review.” Id. at
830–31. We further held that the state-actor
determination was not beyond reasonable dispute
where it “was, in fact, disputed by the parties” in the
related case. Id. at 830.
We think that the district court was incorrect to
take judicial notice of a mixed question of fact and
law when it concluded that Black Lives Matter is a
“social movement, rather than an organization or
entity of any sort.” The legal status of Black Lives
Matter is not immune from reasonable dispute; and,
indeed, it is disputed by the parties—Doe claiming
that Black Lives Matter is a national unincorporated
association, and Mckesson claiming that it is a
movement or at best a community of interest. This
difference is sufficient under our case law to preclude
judicial notice.
We should further say that we see the cases
relied on by the district court as distinguishable.
Each deals with judicial notice of an aspect of an
entity, not its legal form. See United States v. Parise,
159 F.3d 790, 801 (3d Cir. 1998) (holding that the
court could take judicial notice of the aims and goals
of a movement); Atty. Gen. of U.S. v. Irish N. Aid.
Comm., 530 F. Supp. 241, 259–60 (S.D.N.Y. 1981)
(stating the court could take “notice that the IRA is a
‘Republican movement,’ at least insofar as it
advocates a united Ireland” (emphasis added)); see
also Baggett v. Bullitt, 377 U.S. 360, 376 n.13 (1964)
(noting that “[t]he lower court took judicial notice of
the fact that the Communist Party of the United
States . . . was a part of the world Communist
movement” (emphasis added)).

35a
Now, we move on to discuss the merits of Officer
Doe’s contention that Black Lives Matter is a suable
entity. He alleges that Black Lives Matter “is a
national incorporated association with chapter [sic]
in many states.” Under Federal Rule of Civil
Procedure 17(b), the capacity of an entity “to sue or be
sued is determined . . . by the law of the state where
the court is located.” Under Article 738 of the
Louisiana
Code
of
Civil
Procedure,
“an
unincorporated association has the procedural
capacity to be sued in its own name.” The Louisiana
Supreme Court has held that “an unincorporated
association is created in the same manner as a
partnership, by a contract between two or more
persons to combine their efforts, resources,
knowledge or activities for a purpose other than profit
or commercial benefit.” Ermert, 559 So. 2d at 473.
“Interpretation of a contract is the determination of
the common intent of the parties.” La. Civ. Code Ann.
art. 2045. To show intent, “the object of the contract
of association must necessarily be the creation of an
entity whose personality ‘is distinct from that of its
members.’” Ermert, 559 So. 2d at 474 (quoting La.
Civ. Code Ann. art. 24). Louisiana law does not
provide for a public display of the parties’ intent. Id.
Louisiana courts have looked to various factors
as indicative of an intent to create an unincorporated
association, including requiring dues, having
insurance, ownership of property, governing
agreements, or the presence of a formal membership
structure. See Bogue Lusa Waterworks Dist. v. La.
Dep’t of Envtl. Quality, 897 So. 2d 726, 728-729 (La.
Ct. App. 2004) (relying on organization’s unfiled
articles of incorporation); Friendship Hunting Club v.
Lejeune, 999 So. 2d 216, 223 (La. Ct. App. 2008)
(relying on organization’s required dues and

36a
possession of an insurance policy); see also Concerned
Citizens Around Murphy v. Murphy Oil USA, Inc.,
686 F.Supp.2d 663, 675 (E.D. La. 2010) (relying on
organization’s formal and determinate membership
structure). Lacking at least some of these indicators,
Louisiana courts have been unwilling to find an
intent to create an unincorporated association. See,
e.g., Ermert, 559 So. 2d at 474–475 (finding that
hunting group was not an unincorporated association
because it did not own or lease the property that it
was based on, required the permission of one of its
alleged members to use the property, and lacked
formal rules or bylaws).
Officer Doe has not shown in his complaint a
plausible inference that Black Lives Matter is an
unincorporated association. His only allegations are
that Black Lives Matter: (1) was created by three
women; (2) has several leaders, including Mckesson;
(3) has chapters in many states; and (4) was involved
in numerous protests in response to police practices.
He does not allege that it possesses property, has a
formal membership, requires dues, or possesses a
governing agreement. As such, the complaint lacks
any indication that Black Lives Matter possesses the
traits that Louisiana courts have regarded as
indicative of an intent to establish a juridical entity.
We have no doubt that Black Lives Matter involves a
number of people working in concert, but “an
unincorporated association . . . . does not come into
existence or commence merely by virtue of the
fortuitous creation of a community of interest or the
fact that a number of individuals have simply acted
together.” Id. at 474. Therefore, we find that the
district court did not err in concluding that Officer
Doe’s complaint has failed plausibly to allege that
Black Lives Matter is an entity capable of being sued.

37a
V.
In sum, we hold that Officer Doe has not
adequately alleged that Mckesson was vicariously
liable for the conduct of the unknown assailant or
that Mckesson entered into a civil conspiracy with
the purpose of injuring Officer Doe. We do find,
however, that Officer Doe adequately alleged that
Mckesson is liable in negligence for organizing and
leading the Baton Rouge demonstration to illegally
occupy a highway. We further find that in this
context the district court erred in dismissing the suit
on First Amendment grounds. As such, Officer Doe
has pleaded a claim for relief against DeRay
Mckesson in his active complaint.4 We also hold that
the district court erred by taking judicial notice of the
legal status of “Black Lives Matter,” but nonetheless
find that Officer Doe did not plead facts that would
allow us to conclude that Black Lives Matter is an
entity capable of being sued. 5 Therefore, the
Officer Doe has complained of the lack of discovery in this
case, particularly related to his claims against the corporate
defendants. Officer Doe is free to argue before the district court
that he is entitled to discovery. The district court may then
decide whether, in the light of our remand, discovery would be
appropriate.
4

5 Because we find that Officer Doe has successfully pled a
claim, we do not reach the district court’s denial of Officer Doe’s
motion for leave to amend. See Lormand v. US Unwired, Inc.,
565 F.3d 228, 268 n.36 (5th Cir. 2009) (citing Xerox Corp. v.
Genmoora Corp., 888 F.2d 345, 358 n.70 (5th Cir. 1989)). It
follows that we do not address any of the allegations in the
Proposed Amended Complaint or the parties it seeks to add. On
remand, Officer Doe may seek leave to amend his complaint to
add new parties and plead additional facts to support his
negligence claim. The district court should determine whether
to grant this motion, and any new motions for leave to amend, in
the light of our opinion.

38a
judgment of the district court is AFFIRMED in part,
REVERSED in part, and the case is REMANDED for
further proceedings not inconsistent with this
opinion.6
AFFIRMED in part, REVERSED in part, and
REMANDED.

6 On appeal, Officer Doe also argues that the district court
erred in denying his request to proceed anonymously as John
Doe. He argues that the public nature of his job puts him and his
family in danger of additional violence. At the district court, he
listed a number of examples of acts of violence against police
officers by individuals who may have some connection with
Black Lives Matter. In its order, the district court walked
through three factors common to anonymous-party suits that we
have said “deserve considerable weight.” Doe v. Stegall, 653 F.2d
180, 186 (5th Cir. 1981). These are: (1) whether the plaintiff is
“challeng[ing] governmental activity”; (2) whether the plaintiff
will be required to disclose information “of the utmost intimacy”;
and (3) whether the plaintiff will be “compelled to admit [his]
intention to engage in illegal conduct, thereby risking criminal
prosecution.” Id. at 185. The district court concluded that none
of these factors applied to the facts of this case. In response to
Officer Doe’s argument regarding potential future violence, the
district court noted that the incidents Officer Doe listed did not
involve Officer Doe and were not related to this lawsuit. In fact,
at oral argument before the district court regarding his motion,
Officer Doe conceded that he had received no particularized
threats of violence since filing his lawsuit. The district court
instead saw the incidents Officer Doe listed as evidence of “the
generalized threat of violence that all police officers face.” As a
result, the district found that Doe had not demonstrated a
privacy interest that outweighs the “customary and
constitutionally embedded presumption of openness in judicial
proceedings.” Id. at 186. We agree with the district court and
affirm the denial of Doe’s motion to proceed anonymously. In so
holding, we emphasize what the Supreme Court said decades
ago: “What transpires in the court room is public property.”
Craig v. Harney, 331 U.S. 367, 374 (1947).

39a
United States District Court, M.D. Louisiana.
Officer John DOE
v.
DeRay MCKESSON et al.
CIVIL ACTION NO.: 16–00742–BAJ–RLB
Signed September 28, 2017
“[T]he practice of persons sharing common views
banding together to achieve a common end is deeply
embedded in the American political process.” Citizens
Against Rent Control/Coal. for Fair Hous. v. City of
Berkeley, 454 U.S. 290, 294 (1981). Because of its
nature as a fundamental guarantee under the First
Amendment to the United States Constitution, “[t]he
right to associate does not lose all constitutional
protection merely because some members of [a] group
may have participated in conduct,” such as violence,
“that itself is not protected.” NAACP v. Claiborne
Hardware Co., 458 U.S. 886, 908 (1982). Thus, when a
tort is committed in the context of activity that is
otherwise protected by the First Amendment, courts
must use “precision” in determining who may be held
liable for the tortious conduct so that the guarantees
of the First Amendment are not undermined. Id. at
916 (quoting NAACP v. Button, 371 U.S. 415, 438
(1963)).
Plaintiff’s alleged injuries in this case—which he
claims to have suffered in the line of duty as a police
officer while responding to a demonstration—are not
to be minimized. Plaintiff has failed, however, to state
a plausible claim for relief against an individual or
entity that both has the capacity to be sued and falls

40a
within the precisely tailored category of persons that
may be held liable for his injuries, which he allegedly
suffered during activity that was otherwise
constitutionally protected. For the reasons explained
herein, Defendant DeRay Mckesson’s Motion to
Dismiss (Doc. 15) and Defendant DeRay Mckesson’s
Motion to Dismiss Pursuant to Federal Rule of Civil
Procedure 9(a) (Doc. 43) are GRANTED, Plaintiff’s
Motion to File Amended Complaint for Damages (Doc.
52) is DENIED, and this matter is DISMISSED
WITH PREJUDICE.
I. BACKGROUND
In his Complaint, Plaintiff—a Baton Rouge Police
Department officer—alleges that he responded to a
demonstration that took place on July 9, 2016, at the
intersection of Airline Highway and Goodwood
Boulevard. (See Doc. 1 at ¶¶ 12, 15–16). Plaintiff
avers that Defendant DeRay Mckesson (“Mckesson”)
“le[ ]d the protest,” “acting on behalf of” Defendant
“Black Lives Matter.” (Id. at ¶ 3). Plaintiff asserts
that “Black Lives Matter” is a “national
unincorporated association,” of which Mckesson is a
“leader and co-founder.” (Id.).
Although Plaintiff alleges that Mckesson and
“Black Lives Matter” “were in Baton Rouge for the
purpose of demonstrating, protesting[,] and rioting to
incite others to violence against police and other law
enforcement officers,” (id. at ¶ 11), Plaintiff concedes
that the demonstration “was peaceful” when it
commenced, (id. at ¶ 17). Plaintiff avers that “the
protest turned into a riot,” (id. at ¶ 18), however,
when “activist[s] began pumping up the crowd,” (id.
at ¶ 17). Thereafter, demonstrators allegedly “began

41a
to loot a Circle K,” taking “water bottles” from the
business and “hurl[ing]” them at the police officers
who were positioned at the demonstration. (Id. at ¶
18). Once the demonstrators had exhausted their
supply of water bottles, Plaintiff asserts that an
unidentified demonstrator “picked up a piece of
concrete or [a] similar rock[-]like substance and
hurled [it] into the police.” (Id. at ¶ 20). Plaintiff
allegedly was struck by this object, causing several
serious injuries. (Id. at ¶ 21).
Plaintiff alleges that Mckesson “was in charge of
the protests” and “was seen and heard giving orders
throughout the day and night of the protests.” (Id. at
¶ 17). Mckesson, according to Plaintiff, “was present
during the protest and ... did nothing to calm the
crowd”; instead, Mckesson allegedly “incited the
violence on behalf of ... Black Lives Matter.” (Id. at ¶
19).
Plaintiff brought suit, naming Mckesson and
“Black Lives Matter” as Defendants. In his
Complaint, Plaintiff states claims in negligence and
respondeat superior, asserting that Mckesson and
“Black Lives Matter” “knew or should have known
that the physical contact[,] riot[,] and demonstration
that they staged would become violent ... and ... that
violence would result.” (Id. at ¶ 28). The unidentified
demonstrator who threw the object that allegedly
struck Plaintiff, he avers, was “a member of ... Black
Lives Matter” and was “under the control and
custody” of Mckesson and “Black Lives Matter.” (Id.
at ¶ 20). Therefore, according to Plaintiff, Mckesson
and “Black Lives Matter” “are liable in solido for the
injuries caused to” Plaintiff by the unidentified
demonstrator. (Id. at ¶ 31).

42a
Mckesson thereafter filed Defendant’s Rule 12
Motion, asserting that Plaintiff failed to state a
plausible claim for relief against him, as well as
Defendant’s Rule 9 Motion, asserting that “Black
Lives Matter” is not an entity that has the capacity to
be sued. Plaintiff responded by filing Plaintiff’s
Motion to Amend, seeking leave of court to amend his
complaint to add “#BlackLivesMatter” and Black
Lives Matter Network, Inc., as Defendants and to
supplement his Complaint with additional factual
allegations.
II. DISCUSSION
The Court finds that Plaintiff’s Complaint suffers
from numerous deficiencies; namely, the Complaint
fails to state a plausible claim for relief against
Mckesson and it names as a Defendant a social
movement that lacks the capacity to be sued. In an
attempt to ameliorate these deficiencies, Plaintiff has
sought leave of court to amend his Complaint to name
two additional Defendants—“#BlackLivesMatter”
and Black Lives Matter Network, Inc.—and to plead
additional factual allegations. Plaintiff’s proposed
amendment, however, would be futile: Plaintiff fails
to remedy the deficiencies contained in his initial
Complaint with respect to his claims against
Mckesson
and
“Black
Lives
Matter,”
“#BlackLivesMatter”—a hashtag—lacks the capacity
to be sued, and Plaintiff fails to state a plausible
claim for relief against Black Lives Matter Network,
Inc. Plaintiff’s claims, therefore, must be dismissed,
and Plaintiff must be denied the opportunity to
amend his Complaint.
A. Defendant’s Rule 12 Motion

43a
Setting aside his conclusory allegations, Plaintiff
has pleaded facts that merely demonstrate that
Mckesson exercised his constitutional right to
association and that he solely engaged in protected
speech at the demonstration that took place in Baton
Rouge on July 9, 2016. Because Plaintiff has failed to
plead sufficient, nonconclusory factual allegations
that would tend to demonstrate that Mckesson
exceeded the bounds of protected speech, Mckesson
cannot be held liable for the conduct of others with
whom he associated, and Plaintiff thus has failed to
state a plausible claim for relief against Mckesson.
1. Legal Standard
A motion to dismiss filed pursuant to Federal
Rule of Civil Procedure 12(b)(6) tests the sufficiency
of a complaint against the legal standard set forth in
Rule 8, which requires “a short and plain statement of
the claim showing that the pleader is entitled to
relief.” Fed. R. Civ. P. 8(a)(2).
“To survive a motion to dismiss, a complaint
must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its
face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)
(quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570
(2007)). “Determining whether a complaint states a
plausible claim for relief [is] a context-specific task
that requires the reviewing court to draw on its
judicial experience and common sense.” Id. at 679.
“[F]acial plausibility” exists “when the plaintiff
pleads factual content that allows the court to draw
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id. at 678.
Thus, a complaint need not set out “detailed

44a
factual allegations,” but a complaint must contain
something more than “’labels and conclusions’ or ‘a
formulaic recitation of the elements of a cause of
action.’” Id. (quoting Twombly, 550 U.S. at 555).
When conducting its inquiry, the Court must “accept[]
all well-pleaded facts as true and view[] those facts in
the light most favorable to the plaintiff.” Bustos v.
Martini Club Inc., 599 F.3d 458, 461 (5th Cir. 2010)
(quoting True v. Robles, 571 F.3d 412, 417 (5th Cir.
2009)). “[T]he tenet that a court must accept as true
all of the allegations contained in a complaint is
inapplicable to legal conclusions,” and therefore
“[t]hreadbare recitals of the elements of a cause of
action, supported by mere conclusory statements, do
not suffice” to survive a Rule 12(b)(6) motion to
dismiss. Iqbal, 556 U.S. at 678.
2. Analysis
“The First Amendment does not protect
violence.” Claiborne Hardware, 458 U.S. at 916,
(“Certainly violence has no sanctuary in the First
Amendment, and the use of weapons ... may not
constitutionally masquerade under the guise of
‘advocacy.’” (quoting Samuels v. Mackell, 401 U.S. 66,
75 (1971) (Douglas, J., concurring))). “[T]he presence
of activity protected by the First Amendment,”
however, “imposes restraints on the grounds that
may give rise to damages liability and on the persons
who may be held accountable for those damages.” Id.
at 916–17. Thus, while a person may be held liable in
tort “for the consequences of [his] violent conduct,” a
person cannot be held liable in tort “for the
consequences of nonviolent, protected activity.” Id. at
918. “Only those losses proximately caused by
unlawful conduct may be recovered.” Id.

45a
“The First Amendment similarly restricts the
ability” of a tort plaintiff to recover damages from “an
individual solely because of his association with
another.” Id. at 918–19. “Civil liability may not be
imposed merely because an individual belonged to a
group, some members of which committed acts of
violence.” Id. at 920. “For liability to be imposed by
reason of association alone, it is necessary to establish
that the group itself possessed unlawful goals and
that the individual held a specific intent to further
those illegal aims.” Id. To impose tort liability on an
individual for the torts of others with whom he
associated, a plaintiff must prove that (1) the
individual “authorized, directed, or ratified specific
tortious activity”; (2) his public speech was “likely to
incite lawless action” and the tort “followed within a
reasonable period”; or (3) his public speech was of
such a character that it could serve as “evidence that
[he] gave other specific instructions to carry out
violent acts or threats.” Id. at 927.
In his Complaint, Plaintiff alleges that Mckesson
“le[]d the protest and violence that accompanied the
protest.” (Id. at ¶ 3). As support for this contention,
Plaintiff pleaded that Mckesson “was in charge of the
protests[,] and he was seen and heard giving orders
throughout the day and night of the protests.” (Id. at
¶ 17). Further, Plaintiff avers that Mckesson “did
nothing to calm the crowd” during the demonstration;
rather, Mckesson “incited the violence.” (Id. at ¶ 19).
All of these allegations are conclusory in nature,
however, and they do not give rise to a plausible claim
for relief against Mckesson. In order to state a claim
against Mckesson to hold him liable for the tortious
act of another with whom he was associating during

46a
the demonstration, Plaintiff would have to allege
facts that tend to demonstrate that Mckesson
“authorized, directed, or ratified specific tortious
activity.” Id. Plaintiff, however, merely states—in a
conclusory fashion—that Mckesson “incited the
violence” and “g[ave] orders,” (id. at ¶¶ 17, 19), but
Plaintiff does not state in his Complaint how
Mckesson allegedly incited violence or what orders he
allegedly was giving. Therefore, the Complaint
contains a “[t]hreadbare recital[] of the elements” of a
cause of action against Mckesson, which Plaintiff only
has “supported [with] mere conclusory statements,”
and therefore Plaintiff’s Complaint does not “contain
sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’ ” Iqbal, 556
U.S. at 678 (quoting Twombly, 550 U.S. at 570).
Further, Plaintiff has not pleaded sufficient
factual allegations regarding Mckesson’s public
speech to state a cause of action against Mckesson
based on that speech. The only public speech to which
Plaintiff cites in his Complaint is a one-sentence
statement that Mckesson allegedly made to The New
York Times: “The police want protestors to be too
afraid to protest.” (Id. at ¶ 24). Mckesson’s statement
does not advocate—or make any reference
to—violence of any kind, and even if the statement
did, “mere advocacy of the use of force or violence does
not remove speech from the protection of the First
Amendment.” Claiborne Hardware, 458 U.S. at 927.
This statement falls far short of being “likely to incite
lawless action,” which Plaintiff would have to prove to
hold Mckesson liable based on his public speech. Id.
Nor can Plaintiff premise Mckesson’s liability on
the theory that he allegedly “did nothing to calm the

47a
crowd.” Id. at ¶ 19). As the United States Supreme
Court stated in NAACP v. Claiborne Hardware Co.,
458 U.S. 886 (1982), “[c]ivil liability may not be
imposed merely because an individual belonged to a
group, some members of which committed acts of
violence,” id. at 920.
Plaintiff therefore has failed to plead in his
Complaint “factual content that allows the court to
draw the reasonable inference that [Mckesson] is
liable for the misconduct alleged,” and thus Plaintiff’s
claims against Mckesson must be dismissed. Iqbal,
556 U.S. at 678.
B. Defendant’s Rule 9 Motion
The Court finds that “Black Lives Matter,” as
Plaintiff uses that term in his Complaint, refers to a
social movement. Although many entities have
utilized the phrase “black lives matter” in their titles
or business designations, “Black Lives Matter” itself
is not an entity of any sort. Therefore, all claims
against “Black Lives Matter” must be dismissed
because social movements lack the capacity to be
sued.
1. Legal Standard
Although a motion to dismiss for lack of capacity
is not contemplated by the express provisions of Rule
12, such a motion is treated by courts as a motion to
dismiss pursuant to Rule 12(b)(6) when the issue can
be resolved by analyzing the face of the complaint. See
Klebanow v. N.Y. Produce Exch., 344 F.2d 294, 296
n.1 (2d Cir. 1965) (“Although the defense of lack of
capacity is not expressly mentioned in [R]ule 12(b),
the practice has grown up of examining it by a

48a
12(b)(6) motion when the defect appears upon the face
of the complaint.”); Oden Metro Turfing, Inc. v. Cont’l
Cas. Co., No. 12-cv-01547, 2012 WL 5423704, at *2
(W.D. La. Oct. 10, 2012) (citing Klebanow, 344 F.2d
294); see also 5A Charles Alan Wright & Arthur R.
Miller, Federal Practice and Procedure § 1294 (2017
Supp. 2017) (“[I]f the lack of capacity ... appears on
the face of the pleadings or is discernible there from,
the issue can be raised by a motion for failure to state
a claim for relief.”). The Court may treat a motion to
dismiss for lack of capacity as a motion to dismiss
pursuant to Rule 12(b)(6) even if the motion is
labelled incorrectly. See Oden Metro, 2012 WL
5423704, at *2.
“To survive a motion to dismiss, a complaint must
contain sufficient factual matter, accepted as true, to
‘state a claim to relief that is plausible on its face.’”
Iqbal, 556 U.S. at 678 (quoting Twombly, 550 U.S. at
570). “Determining whether a complaint states a
plausible claim for relief [is] a context-specific task
that requires the reviewing court to draw on its
judicial experience and common sense.” Id. at 679.
When conducting its inquiry, the Court must “accept[]
all well-pleaded facts as true and view[] those facts in
the light most favorable to the plaintiff.” Bustos, 599
F.3d at 461 (quoting True, 571 F.3d at 417). “[T]he
tenet that a court must accept as true all of the
allegations contained in a complaint,” however, “is
inapplicable to legal conclusions.” Iqbal, 556 U.S. at
678. When analyzing a motion to dismiss for failure to
state a claim, “courts may also consider matters of
which they may take judicial notice.” Lovelace v.
Software Spectrum Inc., 78 F.3d 1015, 1017-18 (5th
Cir. 1996).

49a
If a party is not an individual or a corporation,
the capacity of that party to be sued “is determined ...
by the law of the state where the court is located.”
Fed. R. Civ. P. 17(b)(3). “Under Louisiana law, an
entity must qualify as a ‘juridical person’ to possess
the capacity to be sued.” Hall v. Louisiana, 974
F.Supp.2d 957, 962 (M.D. La. 2013). “A juridical
person is an entity to which the law attributes
personality, such as a corporation or a partnership.”
La. Civ. Code art. 24. “[F]or an unincorporated
association to possess juridical personality, the object
of the contract of association must necessarily be the
creation of an entity whose personality ‘is distinct
from that of its members.’” Ermert v. Hartford Ins.,
559 So.2d 467, 474 (La. 1990) (quoting La. Civ. Code
art. 24). “Unless such an intent exists, the parties do
not create a fictitious person[,] but instead simply
incur
obligations
among
themselves.”
Id.
“Consequently, an unincorporated association, as a
juridical person distinct from its members, does not
come into existence or commence merely by virtue of
the fortuitous creation of a community of interest or
the fact that a number of individuals have simply
acted together”; rather, “there must also be an
agreement whereby two or more persons combine
certain attributes to create a separate entity for a
legitimate purpose.” Id.
2. Analysis
Mckesson, in his Rule 9 Motion, argues that the
Court should dismiss “Black Lives Matter” as a
Defendant in this case because it lacks the capacity to
be sued. According to Defendant, “Black Lives
Matter” “is a movement and not a juridical entity
capable of being sued.” (Doc. 43–1 at p. 2). The Court

50a
finds that the capacity of “Black Lives Matter” to be
sued can be discerned from the face of the pleadings,
and therefore it will treat Defendant’s Rule 9 Motion
as a motion to dismiss for failure to state a claim
under Rule 12(b)(6). See Klebanow, 344 F.2d at 296
n.1.
Federal Rule of Evidence 201 permits a court to
“judicially notice a fact that is not subject to
reasonable dispute because it ... is generally known
within the trial court’s territorial jurisdiction.” Fed.
R. Evid. 201(b)(1). Courts previously have taken
judicial notice of the character, nature, or composition
of various social movements. See, e.g., United States v.
Parise, 159 F.3d 790, 801 (3d Cir. 1998) (holding that
the court could “easily take judicial notice” of the aims
and goals of the “union movement”); Attorney Gen. of
U.S. v. Irish N. Aid. Comm., 530 F. Supp. 241, 259
(S.D.N.Y. 1981) (“Under the doctrine of judicial
notice, the Court can observe that the ‘Republican
movement’ consists of groups other than, and in
addition to, the IRA; but the Court can also notice
that the IRA is a ‘Republican movement’....”); see also
Baggett v. Bullitt, 377 U.S. 360, 376 n.13 (1964)
(noting that “[t]he lower court took judicial notice of
the fact that the Communist Party of the United
States ... was a part of the world Communist
movement dominated by the Soviet Union”).
In his Complaint, Plaintiff names “Black Lives
Matter” as a Defendant, describing “Black Lives
Matter” as a “national incorporated association with
chapter [sic] in many states[,] which is amenable to
service of process through a managing member.” (Doc.
1 at ¶ 3). Plaintiff alleges that “Black Lives Matter”
was “created by Alicia Garza, Patrisse Cullors, and

51a
Opal Tometi” and that the “leaders” of “Black Lives
Matter” are “Rashad Turner, Johnetta Elzie[,] and
DeRay Mckesson.” (Id. at ¶ 4).
The Court judicially notices that “Black Lives
Matter,” as that term is used in the Complaint, is a
social movement that was catalyzed on social media
by the persons listed in the Complaint in response to
the perceived mistreatment of African–American
citizens by law enforcement officers. Fed. R. Evid.
201; cf. Parise, 159 F.3d at 801 (holding that the court
could “easily take judicial notice” of the aims and
goals of the “union movement”); Irish N. Aid. Comm.,
530 F. Supp. at 259 (“Under the doctrine of judicial
notice, the Court can observe that the ‘Republican
movement’ consists of groups other than, and in
addition to, the IRA; but the Court can also notice
that the IRA is a ‘Republican movement’ ....”); see also
Baggett, 377 U.S. at 376 n.13 (noting that “[t]he lower
court took judicial notice of the fact that the
Communist Party of the United States ... was a part
of the world Communist movement dominated by the
Soviet Union”). Because “Black Lives Matter,” as that
term is used in the Complaint, is a social movement,
rather than an organization or entity of any sort, its
advent on social media merely was a “fortuitous
creation of a community of interest”; “Black Lives
Matter” was not created through a “contract of
association” and is not an “entity whose personality ‘is
distinct from that of its members,’ ” and therefore it is
not a “juridical person” that is capable of being sued.
Ermert, 559 So.2d at 474 (quoting La. Civ. Code art.
24).
The Court notes that the phrase “black lives
matter” has been utilized by various entities wishing

52a
to identify themselves with the “Black Lives Matter”
movement. Plaintiff himself has identified one such
entity and seeks leave of court to add that entity as a
Defendant: Black Lives Matter Network, Inc. (See
Doc. 52–4 at ¶ 3). These entities undoubtedly are
“juridical persons” capable of being sued, and
therefore the issue of such an entity’s capacity would
not impede Plaintiff from filing suit against it. “Black
Lives Matter,” as a social movement, cannot be sued,
however, in a similar way that a person cannot
plausibly sue other social movements such as the
Civil Rights movement, the LGBT rights movement,
or the Tea Party movement. If he could state a
plausible claim for relief, a plaintiff could bring suit
against entities associated with those movements,
though, such as the National Association for the
Advancement of Colored People, the Human Rights
Campaign, or Tea Party Patriots, because those
entities are “juridical persons” within the meaning of
Louisiana law. See La. Civ. Code art 24.
Nevertheless, Plaintiff merely has identified
“Black Lives Matter” as a Defendant in his
Complaint, and that term connotes a social movement
that is not a “juridical person” and that lacks the
capacity to be sued. See Ermert, 559 So.2d at 474.
Therefore, “Black Lives Matter” shall be dismissed as
a Defendant in this case because it lacks the capacity
to be sued. See id.
C. Plaintiff’s Motion to Amend
Following the filing of Defendant’s Rule 12
Motion and Defendant’s Rule 9 Motion, as well as the
oral argument on those Motions, Plaintiff sought
leave of court to amend his Complaint. Plaintiff

53a
identifies two additional Defendants in his Proposed
Amended
Complaint—“#BlackLivesMatter”
and
Black Lives Matter Network, Inc.—and pleads
additional factual allegations. (See Doc. 52–4). In his
Proposed Amended Complaint, however, Plaintiff
nonetheless fails to state a plausible claim for relief
against any of the four named Defendants: “Black
Lives Matter”—a social movement—and “#
BlackLivesMatter”—a hashtag—both lack the
capacity to be sued, and Plaintiff has failed to state
plausible claims for relief against either Mckesson or
Black Lives Matter Network, Inc., that are supported
by anything more than conclusory allegations.
Therefore, because Plaintiff’s Proposed Amended
Complaint would be subject to dismissal in its
entirety, the Court shall deny Plaintiff leave of court
to amend his Complaint.
1. Legal Standard
If a party is not entitled to amend a pleading as a
matter of course pursuant to Rule 15(a)(1), “a party
may amend its pleading only with the opposing
party’s written consent or the court’s leave.” Fed. R.
Civ. P. 15(a)(2). “The court should freely give leave
when justice so requires.” Id. “[A] district court may
refuse leave to amend,” however, “if the filing of the
amended complaint would be futile.” Varela v.
Gonzales, 773 F.3d 704, 707 (5th Cir. 2014). In other
words, the Court may deny Plaintiff’s Motion to
Amend “if the complaint as amended would be subject
to dismissal.” Ackerson v. Bean Dredging LLC, 589
F.3d 196, 208 (5th Cir. 2009).
2. Analysis
a. “# BlackLivesMatter”

54a
Plaintiff, in his Proposed Amended Complaint,
seeks to add as a Defendant “#BlackLivesMatter.”
(See id. at ¶ 3). Plaintiff alleges that
“#BlackLivesMatter” is a “national unincorporated
association [that] is domiciled in California.” (Id.).
The Court judicially notices that the combination
of a “pound” or “number” sign (#) and a word or
phrase is referred to as a “hashtag” and that hashtags
are utilized on the social media website Twitter in
order to classify or categorize a user’s particular
“tweet,” although the use of hashtags has spread to
other social media websites and throughout popular
culture. See Fed. R. Evid. 201; see also TWTB, Inc. v.
Rampick, 152 F.Supp.3d 549, 563 n.97 (E.D. La.
2016) (“A hashtag is ‘a word or phrase preceded by the
symbol # that classifies or categorizes the
accompanying text (such as a tweet).’” (quoting
Hashtag, Merriam–Webster Dictionary (2017),
https://www.merriam-webster.com/dictionary/hashta
g)). The Court also judicially notices that
“#BlackLivesMatter” is a popular hashtag that is
frequently used on social media websites. See Fed. R.
Evid. 201.
Plaintiff therefore is attempting to sue a hashtag
for damages in tort. For reasons that should be
obvious, 1 a hashtag—which is an expression that
The Court notes that if Plaintiff were not bearing his own
costs, which otherwise would be borne by the taxpayers, 28
U.S.C. § 1915(e)(2)(B)(i) would permit the Court to dismiss this
claim as “frivolous”: a lawsuit that alleges that a
hashtag—which is, in essence, an idea—is liable in tort for
damages can be properly categorized as “fantastic or delusional.”
Neitzke v. Williams, 490 U.S. 319, 328 (1989).
1

55a
categorizes or classifies a person’s thought—is not a
“juridical person” and therefore lacks the capacity to
be sued. See La. Civ. Code art. 24. Amending the
Complaint to add “#BlackLivesMatter” as a
Defendant in this matter would be futile because such
claims “would be subject to dismissal”; a hashtag is
patently incapable of being sued. Ackerson, 589 F.3d
at 208.
b. “Black Lives Matter”
Plaintiff also seeks to supplement his allegations
regarding Defendant “Black Lives Matter.” In his
Proposed Amended Complaint, Plaintiff avers that
“Black Lives Matter” is a “chapter-based national
unincorporated association” that is “organized” under
the laws of the State of California, though it allegedly
is also a “partnership” that is a “citizen” of “California
and Delaware.” (Id.).
For the reasons stated previously in reference to
the Court’s analysis of Defendant’s Rule 9 Motion,
“Black Lives Matter” is a social movement that lacks
the capacity to be sued. See discussion supra Section
II.B.2. In fact, in his Proposed Amended Complaint,
Plaintiff himself refers to “Black Lives Matter” as a
“movement” on multiple occasions. (See, e.g., id. at ¶
11 (describing the “Black Lives Matter movement”);
id. at ¶ 45 (describing the “Black Lives Matter
movement”); id. at ¶ 48 (describing the “movement’s
rioters”)). Amending the Complaint to permit
Plaintiff to continue to pursue claims against “Black
Lives Matter” would be futile because such claims
“would be subject to dismissal.” Ackerson, 589 F.3d at
208. For the reasons stated previously, “Black Lives
Matter” is a social movement that is not a “juridical

56a
person” and that lacks the capacity to be sued.
c. Mckesson
Plaintiff seeks to amend his complaint to include
additional factual allegations in relation to
Mckesson’s activities and public statements. Plaintiff
seeks to supplement his Complaint with allegations
that Mckesson (1) made a statement on a television
news program, in which he allegedly “justified the
violence” that occurred at a demonstration in
Baltimore, Maryland, (id. at ¶ 9); (2) engaged in a
private conversation that allegedly “shows an intent
to use protests to have ‘martial law’ declared
nationwide through protests,” (id. at ¶ 19); (3)
allegedly made a statement to a news website that
“people take to the streets as a last resort,”
which—according to Plaintiff—was a “ratification
and justification of ... violence,” (id. at ¶ 48); (4)
participated in various interviews or speeches during
which he allegedly described himself or was described
as a “leader” of the “Black Lives Matter” movement or
a “participant” in various demonstrations, (see, e.g.,
id. at ¶¶ 10, 11, 13, 45, 55, 58); (5) “ratified all action
taken during the Baton Rouge protest,” (id. at ¶ 39);
and (6) “incited criminal conduct that cause[d]
injury,” (id. at ¶ 44).
These supplemental factual allegations do not
remedy Plaintiff’s failure to state a plausible claim for
relief against Mckesson. See discussion supra Section
II.A.2. Plaintiff’s allegations that Mckesson “ratified
all action,” (id. at ¶ 39), and “incited criminal
conduct,” (id. at ¶ 44), are nothing but “[t]hreadbare
recitals of the elements of a cause of action, supported
by mere conclusory statements,” which “do not

57a
suffice” to survive a Rule 12(b)(6) motion to dismiss.
Iqbal, 556 U.S. at 678. Plaintiff’s Proposed Amended
Complaint is devoid of any facts, aside from these
broad conclusory allegations, that tend to suggest
that Mckesson made any statements or engaged in
any conduct that “authorized, directed, or ratified”
the unidentified demonstrator’s act of throwing a rock
at Plaintiff. Claiborne Hardware, 458 U.S. at 927.
Further, the additional public statements2 that
Plaintiff has pleaded do not support a plausible claim
for relief against Mckesson. Rather than including
the actual statement that Mckesson allegedly made
on a television news program, Plaintiff merely pleads
that Mckesson “justified the violence,” (id. at ¶ 9); this
is a “[t]hreadbare recital[ ] of the elements of a cause
of action,” which is “supported by mere conclusory
statements.” Iqbal, 556 U.S. at 678. Mckesson’s
alleged statement that “people take to the streets as a
last resort,” (id. at ¶ 48), similarly cannot give rise to
a cause of action: it is not plausible that this
statement could be “likely to incite lawless action” or
be of such a character that it could serve as “evidence
that [he] gave other specific instructions” to the
unidentified demonstrator to throw a rock at
Setting aside Plaintiff's description of it in mere conclusory
terms, the conversation in which Plaintiff alleges that Mckesson
"show[ed] an intent to use protests to have `martial law' declared
nationwide through protests," Doc. 52-4 at ¶ 19, is
a private conversation that cannot give rise to liability in tort for
the actions of other demonstrators. See Claiborne
Hardware, 458 U.S. at 927, 102 S.Ct. 3409 (holding that liability
may only be imposed on a person for the tortious acts of others
with whom the person associated if his "public speech" meets
certain criteria (emphasis added)).
2

58a
Plaintiff. Claiborne Hardware, 458 U.S. at 927.
Moreover, to premise Mckesson’s liability on the sole
basis of his public statements in which he identified
himself as a “leader” of the “Black Lives Matter”
movement
or
a
“participant”
in
various
demonstrations, (see, e.g., id. at ¶¶ 10, 11, 13, 45, 55,
58), would impermissibly impose liability on
Mckesson for merely exercising his right of
association. See id. at 925-26 (“[M]ere association
with [a] group—absent a specific intent to further an
unlawful aim embraced by that group—is an
insufficient predicate for liability.”).
Plaintiff therefore has failed to remedy the
deficiencies that the Court identified in his
Complaint, see discussion supra Section II.A.2, and
thus permitting Plaintiff to amend his Complaint to
add various factual allegations against Mckesson
would be futile because such claims nonetheless
“would be subject to dismissal.” Ackerson, 589 F.3d at
208.
d. Black Lives Matter Network, Inc.
Plaintiff, in his Proposed Amended Complaint,
seeks to add Black Lives Matter Network, Inc., as a
Defendant in this case. Plaintiff discovered the
existence of Black Lives Matter Network, Inc., after
making a donation through a website that is allegedly
identified with the “Black Lives Matter” movement;
the receipt from the donation indicated that Black
Lives Matter Network, Inc., was the entity that
received the donation.
While Black Lives Matter Network, Inc., certainly

59a
is an entity that has the capacity to be sued, see La.
Civ. Code art. 24, Plaintiff has failed to state a
plausible claim for relief against that entity in his
Proposed Amended Complaint. For an entity such as
Black Lives Matter Network, Inc., to be held liable in
tort for damages caused during a demonstration, a
plaintiff must demonstrate that the tortious act was
committed by one of the entity’s “agents ... within the
scope of their actual or apparent authority.”
Claiborne Hardware, 458 U.S. at 930. Such an entity
also may “be found liable for other conduct of which it
had knowledge and specifically ratified.” Id.
Plaintiff’s only attempt at characterizing the
unidentified tortfeasor as an agent of Black Lives
Matter Network, Inc., is located in paragraph 37 of
the Proposed Amended Complaint, in which Plaintiff
alleges that the tortfeasor was a “member of
Defendant Black Lives Matter, under the control and
custody of Defendants.” (Id. at ¶ 37). Not only does
Plaintiff specifically fail to mention Black Lives
Matter Network, Inc., whatsoever, but Plaintiff also
fails to allege that such an agency relationship
existed between the tortfeasor and “Defendants” with
anything more than a “[t]hreadbare recital[] of the
elements” of agency, “supported by [a] mere
conclusory statement[ ].” Iqbal, 556 U.S. at 678.
Further, Plaintiff has failed to plead that Black Lives
Matter Network, Inc., in particular, “had knowledge
and specifically ratified” the unidentified tortfeasor’s
act of throwing a rock at Plaintiff, Claiborne
Hardware, 458 U.S. at 930; Plaintiff merely alleges,
in a conclusory fashion, that “Black Lives Matter
leadership ratified all action taken during the
protest,” (id. at ¶ 39), and that “Black Lives Matter

60a
promoted and ratified” the tortious conduct that gave
rise to this suit, (id. at ¶ 44).
These allegations are insufficient to state a
plausible claim for relief against Black Lives Matter
Network, Inc. Not only are these allegations
“conclusory statements,” but they also do not identify
any connection between this particular entity—Black
Lives Matter Network, Inc.—and the particular
tortious activity. Iqbal, 556 U.S. at 678. As the
Supreme Court noted in Claiborne Hardware,
allowing Plaintiff to proceed against Black Lives
Matter Network, Inc., in this case—based solely on
these conclusory allegations—“would impermissibly
burden the rights of political association that are
protected by the First Amendment.” 458 U.S. at 931.
Therefore, allowing Plaintiff to amend his Complaint
to add Black Lives Matter Network, Inc., as a
Defendant in this matter would be futile because such
claims “would be subject to dismissal”;3 Plaintiff has
failed to state a plausible claim for relief against
Black Lives Matter Network, Inc., in his Proposed
Amended Complaint. Ackerson, 589 F.3d at 208.
3. Conclusion
Therefore, the Court finds that Plaintiff has failed
to plead a plausible claim for relief against any of the
Defendants that he identified in his Proposed
Amended Complaint. The Court thus denies Plaintiff
leave to amend his Complaint because the “filing of
the amended complaint would be futile.” Varela, 773
Black Lives Matter Network, Inc., indeed has filed a motion to
dismiss in the event that the Court permitted Plaintiff to amend
his Complaint to add it as a Defendant. See Doc. 68.
3

61a
F.3d at 707.
D. Dismissal with Prejudice
For the reasons stated above, the Court finds that
Plaintiff has failed to state a plausible claim for relief
against either Mckesson or “Black Lives Matter,” the
only Defendants named in Plaintiff’s initial
Complaint. See discussion supra Section II.A.-B.
Under normal circumstances, the Court would
dismiss this matter without prejudice to provide
Plaintiff with an opportunity to ameliorate the
deficiencies that the Court has identified in his
Complaint.
Plaintiff has had ample opportunity, however,
following the briefing and argument on Defendant’s
Rule 12 and Rule 9 Motions to demonstrate to the
Court that he can state a plausible claim for relief
against an individual or entity. In response to the
arguments raised by Mckesson in his Motions and by
the Court during oral argument on the Motions,
Plaintiff nonetheless produced a Proposed Amended
Complaint that not only fails to state a plausible
claim for relief against any of the named Defendants,
but that also attempts to hold a hashtag liable for
damages in tort. The Court therefore finds that
granting leave to Plaintiff to attempt to file a Second
Proposed Amended Complaint would be futile. The
Court also notes that Plaintiff’s attempt to bring suit
against a social movement and a hashtag evinces
either a gross lack of understanding of the concept of
capacity or bad faith, which would be an independent
ground to deny Plaintiff leave to file a Second
Proposed Amended Complaint. The Court therefore
shall dismiss this matter with prejudice. See Cent.

62a
Laborers’ Pension Fund v. Integrated Elec. Servs. Inc.,
497 F.3d 546, 556 (5th Cir. 2007) (citing Foman v.
Davis, 371 U.S. 178, 182 (1962)).
III. CONCLUSION
Accordingly,
IT IS ORDERED that Defendant DeRay
Mckesson’s Motion to Dismiss (Doc. 15) is GRANTED.
IT IS FURTHER ORDERED that Defendant
DeRay Mckesson’s Motion to Dismiss Pursuant to
Federal Rule of Civil Procedure 9(a) (Doc. 43) is
GRANTED.
IT IS FURTHER ORDERED that the Motion to
File Amended Complaint for Damages (Doc. 52) filed
by Plaintiff is DENIED.
IT IS FURTHER ORDERED that the
above-captioned matter is DISMISSED WITH
PREJUDICE.

